<html>
<title> - REAUTHORIZATION OF AND POTENTIAL REFORMS TO THE LAND AND WATER CONSERVATION FUND (LWCF)</title>
<body><pre>[Senate Hearing 114-310]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-310
 
    REAUTHORIZATION OF AND POTENTIAL REFORMS TO THE LAND AND WATER 
                        CONSERVATION FUND (LWCF)

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2015

                               __________
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               
                               
                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               
            Available via the World Wide Web: http://fdsys.gov
            
            
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 95-271                  WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
              
               
               
               

           
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Natural Resources Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     4

                               WITNESSES

Connor, Hon. Michael, Deputy Secretary, U.S. Department of the 
  Interior.......................................................    10
Ledford, Lewis, Executive Director, National Association of State 
  Park Directors.................................................    19
Scarlett, Lynn, Managing Director, Public Policy, The Nature 
  Conservancy....................................................    84
Watson, Reed, Executive Director, Property and Environment 
  Research Center................................................    92

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Association of Northwest Steelheaders:
    Letter for the Record........................................   183
Backcountry Hunters & Anglers and Trout Unlimited:
    Letter for the Record........................................   184
Bellone, Andrew:
    Letter for the Record........................................   186
Benjaminson, Hon. Eric:
    Letter for the Record........................................   187
Brown, Chad:
    Letter for the Record........................................   188
Cantwell, Hon. Maria:
    Opening Statement............................................     4
Caplin, Michael:
    Letter for the Record........................................   190
Catalyst Wilderness Therapy Program:
    Letter for the Record........................................   215
CH2MHILL:
    Letter for the Record........................................   216
City of Hillsboro, Oregon:
    Letter for the Record........................................   217
Coalition of Oregon Land Trusts:
    Letter for the Record........................................   218
Confluence:
    Letter for the Record........................................   220
Connor, Hon. Michael:
    Opening Statement............................................    10
    Written Testimony............................................    12
    Responses to Questions for the Record........................   139
Craft3:
    Letter for the Record........................................   221
Frederick, Hon. Lew:
    Letter for the Record........................................   222
Gardner, Hon. Cory:
    Photograph of Colorado landscape.............................   126
    Photograph of Baca Ranch in Colorado.........................   127
Ledford, Lewis:
    Opening Statement............................................    19
    Written Testimony............................................    21
    Responses to Questions for the Record........................   163
Manchin III, Hon. Joe:
    Photograph of the New River Gorge area in West Virginia......   130
Marr, Timothy:
    Letter for the Record........................................   223
Metro Council:
    Letter for the Record........................................   224
Monroe, Hon. Rod:
    Letter for the Record........................................   225
(The) Mountaineers:
    Letter for the Record........................................   226
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Association of State Park Directors:
    Letter for the Record........................................   110
National Association of State Outdoor Recreation Liaison 
  Officers:
    Letter for the Record........................................   112
National Recreation and Park Association:
    Letter for the Record........................................   108
National Recreation and Park Association, et al:
    Statement for the Record.....................................   227
National Trust for Historic Preservation:
    Statement for the Record.....................................   230
Neil Kelly:
    Letter for the Record........................................   236
Northwest Sportfishing Industry Association:
    Letter for the Record........................................   237
Oregon Economic Development Association:
    Letter for the Record........................................   238
Outdoor Alliance:
    Letter for the Record........................................   239
Outdoor Industry Association:
    Letter for the Record........................................   241
Outdoor Industry Association and the Conservation Alliance:
    Letter for the Record........................................   244
Outdoors Alliance for Kids:
    Letter for the Record........................................   247
Plum Creek Timber Company, et al:
    Letter for the Record........................................   249
Plum Energy:
    Letter for the Record........................................   251
Portland General Electric Company:
    Letter for the Record........................................   252
QuadState Local Governments Authority:
    Statement for the Record.....................................   253
Roblan, Hon. Arnie:
    Letter for the Record........................................   264
Rola, Jeff:
    Letter for the Record........................................   265
Scarlett, Lynn:
    Opening Statement............................................    84
    Written Testimony............................................    86
    Responses to Questions for the Record........................   174
Schafer, Bruce:
    Letter for the Record........................................   266
Southern Oregon Regional Economic Development, Inc.:
    Letter for the Record........................................   267
Tindall, Barry:
    Letter for the Record........................................   268
Walker, Hon. Bill:
    Letter for the Record........................................   271
Washington Outdoor Alliance:
    Letter for the Record........................................   273
Watson, Reed:
    Opening Statement............................................    92
    Written Testimony............................................    94
    Responses to Questions for the Record........................   180
Western Landowners Alliance:
    Letter for the Record........................................   275
Willamette Valley Vineyards:
    Letter for the Record........................................   277
Wyden, Hon. Ron:
    Statement for the Record.....................................     5
Zedwick, Matthew:
    Letter for the Record........................................   278


    REAUTHORIZATION OF AND POTENTIAL REFORMS TO THE LAND AND WATER 
                        CONSERVATION FUND (LWCF)

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

                                        U.S. Senate
                  Committee on Energy and Natural Resources
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. We will call this hearing to 
order. We have several votes scheduled in less than an hour and 
obviously a great deal of interest in this topic this morning, 
so I would like to get started as quickly as possible.
    I want to thank you all for being here as we meet to 
consider the reauthorization and reform of the Land and Water 
Conservation Fund Act. I think it is fitting that we look at 
this Act today given that today is Earth Day. Over the past 50 
years it has played a key role in creating our nation's world 
class State and Federal outdoor recreation system.
    I fully support reauthorizing this Act this year in a way 
that reflects the changing needs and evolving viewpoints about 
conservation in the 21st century.
    We have a lot to cover today, so let's begin first with 
land acquisition. In its first 50 years this Act was largely 
focused on building a recreation system. To do that Congress 
agreed that it was necessary to acquire lands at both the 
Federal and the State levels. Back then LWCF land acquisition 
was largely expected to occur in the Eastern states. Even 50 
years ago there was a strong recognition that we should focus 
on areas with a lack of public lands and therefore, fewer 
opportunities to recreate.
    The Senate and the House Committee reports made that point, 
and the Act itself includes an express spending limitation for 
the Forest Service. The agency cannot spend more than 15 
percent of its LWCF funds to acquire lands west of the 100th 
Meridian. However, over the years we have seen both 
congressional intent and limitations ignored. The Forest 
Service, for example, has spent almost 37 percent of its LWCF 
funds on land acquisition in the West. Now I am not opposed to 
reasonable and justified acquisitions, but coming from a state 
like Alaska where close to 63 percent of our lands are already 
held by the Federal Government, I do approach the need for 
additional Federal purchases with some skepticism, particularly 
when we are dealing with tough budgetary times.
    It seems counterintuitive, particularly in Western states 
with high percentages of public lands, to add more to what we 
already have and already struggle to properly care for, except 
perhaps when there is a case to be made that the acquisition 
would reduce long-term administrative costs. I think we 
recognize that makes sense.
    As we meet today the Federal Land Management agencies face 
a growing maintenance backlog, about $22 billion in total, and 
more than $11 billion of that is at the National Park Service. 
As we look to reauthorize LWCF, I believe that it makes sense 
to shift the Federal focus away from land acquisition, 
particularly in Western states, toward maintaining and 
enhancing the accessibility and quality of the resources we 
have. This is the best way to put our nation's recreation 
system on the path of long-term viability.
    Now some have said that using LWCF dollars for maintenance 
is inappropriate, but I would just direct you back to the act 
itself. The act states that it is not just about the quantity 
of recreation resources. It is also about the quality of those 
resources.
    Using LWCF moneys for maintenance activities is not new. 
From FY'98 through Fiscal Year 2001, LWCF was used to address 
the maintenance backlog at all four land management agencies. I 
strongly believe conservation in the 21st century must include 
taking care of what we already have, what we choose to conserve 
first instead of simply pretending that more is always better.
    We always talk a lot about access to our public lands, and 
we have been looking at different ways to use LWCF funds to 
increase it. This is another area that is of particular 
interest to me.
    Many of Alaska's really prime recreation resources are 
accessible only by plane or by boat. So access is not just 
about land acquisition. It is also about development of 
recreation facilities like boat launches, trails, and roads. 
These are the kinds of facilities that are a critical link 
between users and otherwise inaccessible lands.
    We also need to recognize that bringing land into Federal 
ownership does not always equate with making it accessible to 
the public. You have heard me talk here in this Committee about 
the situation with a day care provider with little children, 
four, five, and six year olds, who went out on a picnic in the 
Tongass, and the day care provider was fined by the Forest 
Service for not having a permit to utilize the picnic table.
    The Federal lands access provision's also one of the 
primary and most popular provisions in the bipartisan 
Sportsmen's Act that I have been working on with Senator 
Heinrich. There are many access-related issues we can focus on 
this year.
    I have, again, brought up before the Committee my efforts 
to allow small scale filming on public lands to continue by 
making sure that they have access to filming rather than be 
denied access.
    For LWCF I would like to see greater emphasis on 
conservation easements rather than fee acquisitions so that we 
can continue lands as working lands and ensure public access.
    When we talk about the Land and Water Conservation Fund Act 
these days it is almost exclusively discussion about Federal 
land acquisition, and that is a little disappointing to me.
    Many seem to have forgotten the pivotal role that states 
have in conservation and outdoor recreation under the Act. From 
the start the Act recognized that states were the lynch pin and 
provided Federal funding for state grants for recreation 
planning, land acquisition and development. The state grant 
programs require a 50/50 match. In some cases the states exceed 
this requirement so that every Federal dollar is highly 
leveraged. On the state side these dollars go to outdoor 
recreation facilities near where people actually live from 
local city playgrounds, baseball fields to local fishing holes 
in state parks that clearly rival some of our national parks.
    From the start LWCF monies were to be allocated each year 
so that Federal agencies would receive no less than 40 percent 
and the states, the remainder. But once again, with over 85 
percent of LWCF funds going to Federal land acquisition it is 
clear to me that we are not meeting that congressional intent. 
This has happened even though states have been strong, public 
advocates of public access and have worked with our sportsmen 
and sportswomen to provide hunting and fishing and recreational 
shooting opportunities on our Federal and State lands.
    The current approach also ignores an area where states can 
and are doing a good job.
    Alaska State Parks is the largest state park system in the 
country. It is our state's largest provider of recreation 
facilities such as public campgrounds and it boasts twice the 
visitation of Alaska's National Parks. So instead of leaving 
them on the sidelines, I believe that states need to be given 
the opportunity to lead here. States are in the best position 
to understand and accommodate the needs of our citizens and not 
every state has access to Federal recreation resources.
    Now there are some who attempt to minimize the roles of the 
states in land management, and there is an attempt to drive a 
wedge between those who work and recreate on public lands. In 
fact some have tried to politicize an amendment that I offered 
on the budget several weeks back that would provide a budget 
reserve fund for Federal land transfers and exchanges with the 
states.
    Now those who are not from the West may not realize it, but 
this Committee effectively serves as a real estate exchange for 
the West. Buying and selling land often takes, literally, an 
act of Congress. These types of transfers and exchanges both 
with the states and private parties are the means of maximizing 
the value of public lands for hunting and recreation while 
allowing Western communities continued access to those lands 
best suited for multiple use.
    Ironically these same entities that have criticized the 
budget amendment have praised the public lands package that I 
negotiated and fought to include on the NDAA bill last year. 
That package struck a balance. It designated new parks and 
conservation units and transferred and exchanged land for 
development. It designated new wilderness as well as releasing 
wilderness study areas.
    Advocates of conservation and development both recognized 
that this type of balance was necessary to move significant 
legislation, and that package almost fell apart over budget 
issues. Facilitating that type of a package was exactly, what I 
had in mind with the budget amendment.
    So I do look forward to the discussion about how we deal 
with Land and Water Conservation Fund and its reauthorization, 
but I think that there clearly and fairly are good issues to be 
discussing here. As we begin those conversations I do hope that 
they will be productive and constructive as we work to address 
areas of significant interest and concern.
    I have taken longer in my opening statement than I usually 
do, but I felt it was important to lay out some of the history 
of this very, very significant act, its purposes, its design 
and where, in my view, we have failed in adhering to the sum of 
the contours of that.
    With that, I turn to my Ranking Member for her comments 
this morning.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair and thank you for 
scheduling this important hearing today on Earth Day to review 
the Land and Water Conservation Fund which is one of our 
nation's most successful conservation programs.
    I want to say at the outset that I know my colleague, 
Senator Wyden, is unable to be here this morning because we are 
starting a markup in the Finance Committee on the Trade 
Promotion Act which will also pull me away at some point in 
time this morning. But he is a big supporter of the Land and 
Water Conservation Fund, and he and I are co-sponsors of 
legislation to permanently reauthorize this and provide 
certainty to funding.
    In addition, we will add his statement to the record and 
very much appreciate his leadership on that.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  
    
      
    Senator Cantwell. In the 50 years since this act was first 
put into law, and I should point out by Scoop Jackson of 
Washington State and as a suggestion by then-President Kennedy, 
if you look at the original focus of the Land and Water 
Conservation Fund, it was really in the 60's as the country 
started to urbanize and to grow in population, people wanted to 
make sure that we were setting aside lands in those growing 
areas. So I am sure for some of my colleagues that represent 
more rural states or less densely populated states, the concept 
of Land and Water Conservation Fund might not be as prevalent 
for them.
    But I can walk around the State of Washington today, 
particularly within Puget Sound, and point to various parks and 
recreation areas that exist within the urban center that are 
great examples of preservation made possible by the Land and 
Water Conservation Fund. They have made the urban center a 
possible place to work and live and recreate. That is what is 
so important to me about the Land and Water Conservation Fund. 
To me, this hearing this morning is about our relationship to 
stewardship. We should remember on Earth Day that Earth is 
lasting a lot longer than all of us, and the question is what 
good stewardship we provide in the meantime.
    So this iconic program that has helped protect many of our 
nation's most iconic and most popular national parks, forests, 
and public lands is, I think, a treasure in itself. The fund 
has provided countless opportunities for hunting and fishing 
and other recreation uses, and it has helped support state and 
local conservation.
    Many of us with significant public lands in our state have 
seen the impacts of protecting these landscapes and providing 
for outdoor recreation which brings strong economic benefits. 
The Outdoor Industry Association has estimated that outdoor 
recreation supports more than 6,000,000 jobs nationwide and 
generates almost $650 billion annually in direct consumer 
spending. I hate to say that I am a frequent user of REI, and 
probably have contributed somewhat to that number myself.
    In Washington State, visitors to Federal lands in the state 
spent over $1.3 billion last year. So protecting our public 
lands is not only good for our environment, but also good for 
our economy, and that includes many of our small, local 
businesses.
    I think it is helpful to keep in mind the history of the 
Land and Water Conservation Fund and its funding mechanisms. A 
few years ago, after the fund was enacted, it became clear that 
the initial funding sources would not be sufficient to fulfill 
the tremendous demand for land protection and for development 
of new recreational opportunities. As a result, Congress 
amended the law to direct a portion of the revenue from oil and 
gas development on the Outer Continental Shelf (OCS) to the 
fund.
    The concept behind linking OCS to the Land and Water 
Conservation Fund was based on the principle that a portion of 
revenues obtained from the depletion of non-renewable resources 
belonging to all Americans should be dedicated to preserving 
other natural resources of lasting benefit to the nation. It 
was a sound concept then and is one that we should continue to 
adhere to today. But as the matter now stands, unless Congress 
acts to extend that authorization, the authority to credit the 
Land and Water Conservation Fund with OCS revenues will expire 
at the end of this fiscal year. That is less than six months 
from now.
    So I want to make clear that I will do everything I can to 
make sure that funding for one of the most successful 
conservation programs will not lapse. I have introduced 
legislation, as I mentioned, with Senator Wyden and others to 
permanently reauthorize the Land and Water Conservation Fund 
and to explore opportunities to move that legislation forward. 
There has already been a strong vote for the reauthorization of 
the Land and Water Conservation Fund earlier this year on the 
Senate floor, which I think is evidence that there is broad 
bipartisan support for this program.
    So I hope that today's hearing will be a good first step in 
helping us find a way forward toward reauthorization. I know 
there are concerns that our nation should not be acquiring land 
while land management agencies have backlogs of deferred 
maintenance. Observers of this Committee know that the Chairman 
and I do not always see eye to eye, but I hope that she and I 
can work through this issue. I do not believe that we have to 
choose between one or the other, and I hope that we can work 
together and find a solution.
    The National Park Service deferred maintenance backlog is 
the most often cited example of the agency's maintenance needs, 
and I agree we must find a way to increase maintenance funding. 
But it is a mistake to assume that the only funding options we 
have are between land acquisition and maintenance.
    So, in fact, funding for maintenance is already authorized 
and every year the land management agencies receive 
appropriations for maintenance activities. So there is not a 
need to force maintenance activities to compete directly for 
Land and Water Conservation Fund dollars. Nearly half of the 
Park Service's estimated backlog is attributed to needed 
repairs for roads and highways within the National Park. The 
single biggest improvement we could make in reducing the 
maintenance backlog would be to increase the funding level in 
the Transportation bill for park roads.
    So I think it is also important for our colleagues to 
recognize that the fund is already a flexible program that 
offers many different tools to enable us to protect and improve 
public lands. The program is most well-known for allowing 
Federal land management agencies to acquire land within the 
boundaries of designated conservation areas, for helping to 
protect wildlife habitat, and for providing new opportunities 
for hunting and fishing and recreation.
    In addition, over the past 50 years the Land and Water 
Conservation State Assistance Program has provided over $4 
billion through 40,000 matching grants to states and local 
governments for the acquisition and development of public 
outdoor recreation areas and facilities. In recent years, the 
Fund has increasingly been used to conserve private lands as 
well. For example, the Forest Legacy Program, which helps pay 
for protection of these privately-owned forest lands. I can 
tell you that I hear a lot from a variety of groups in my state 
about their support for that. Similarly, cooperative endangered 
species grants provide funding to states to help protect 
threatened and endangered species. Furthermore, over the past 
decade roughly half of the Land and Water Conservation Fund 
expenditures have been for conservation programs directed by 
state and local governments rather than for traditional Federal 
land acquisition.
    So I do want to say I support both Federal and State 
programs and continued funding for both Federal and State 
programs.
    For those that are questioning whether enough funds are 
being directed to the state program, I think it is important to 
remember that under the Gulf of Mexico Energy Security Act, 
better known as GOMESA, the states will be receiving as much as 
$125 million each year in mandatory funding, not subject to 
congressional appropriations. So while I definitely want to see 
something more permanent to make sure that funding is spent in 
the Land and Water Conservation Fund, I strongly believe that 
Federal expenditures need to be part of the equation.
    So again, there are not many programs that I think provide 
more tangible results than the Land and Water Conservation 
Fund. I believe our nation can afford this level of investment. 
As I said at the beginning, it is about stewardship.
    It is about stewardship. It is not about what opportunities 
we take for today, but it is about what stewardship we are 
going to provide for the future. I hope all of us on Earth Day 
will think about stewardship.
    I thank the Chair for holding this important hearing, and I 
appreciate the witnesses making themselves available for this 
subject today.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    With that, let us begin with our witnesses. I will 
introduce each of you. We will proceed here from my left 
beginning with Mr. Connor and go down the table.
    Given that we have two votes at 10:45 it is the intention 
of the Chair that we will hear from our witnesses. We will then 
proceed to ask questions of five minutes each, but we will keep 
the Committee moving, and therefore, we will not adjourn for 
votes.
    So pardon the jack-in-the-box exercise, but we are 
multitasking here today. We appreciate not only your indulgence 
with that but your willingness to come before the Committee and 
provide your testimony.
    We will begin with the Honorable Michael Connor, who is the 
Deputy Secretary for the U.S. Department of Interior. We have 
had many opportunities to see Mr. Connor before the Committee, 
and we welcome him back.
    Next to him is Mr. Lewis Ledford, who is the Executive 
Director for the National Association of our State Park 
Directors. Welcome.
    Next we also have a familiar face to the Committee from a 
previous Administration, this is Ms. Lynn Scarlett, who is the 
Managing Director for Public Policy at The Nature Conservancy. 
Thank you for being here.
    Our final witness on the panel today is Mr. Reed Watson, 
who is the Executive Director for the Property and Environment 
Research Center (PERC).
    Welcome to all of you.
    Mr. Connor, if you would like to begin this morning.

   STATEMENT OF HON. MICHAEL CONNOR, DEPUTY SECRETARY, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Connor. Absolutely.
    Chairman Murkowski, Ranking Member Cantwell, members of the 
Committee, thank you for the opportunity to be here today and 
discuss reauthorization of the Land and Water Conservation 
Fund.
    Fifty years ago Congress enacted the Land and Water 
Conservation Fund Act of 1965 as a bipartisan commitment to 
safeguard natural areas, water resources and cultural heritage 
and to provide recreation opportunities for all Americans now 
and in the future. The LWCF has been and continues to be an 
innovative and highly successful program. By reinvesting 
revenues from offshore oil and gas activities in the public 
lands the LWCF both through state and Federal programs has 
proven to be one of the nation's most effective conservation 
tools.
    Simply put, LWCF makes economic sense. It makes 
environmental sense, it makes fiscal sense, and it makes sense 
for future generations. For these reasons this Administration 
believes it critically important to reauthorize and secure 
mandatory funding for this successful program.
    I'll quickly summarize some of the key points in my written 
testimony.
    First, LWCF makes economic sense. Today the National Park 
Service announced a record number of visitors to the national 
parks which translated to $29.7 billion in economic activity 
and supported nearly 277,000 jobs, and these statistics just 
build on what we already know from a recent analysis by the 
Federal Interagency Council on outdoor recreation that in 2012 
recreation activities on federally-managed lands and waters 
contributed approximately $51 billion to the economy and 
880,000 jobs.
    Second, the Land and Water Conservation Fund makes 
ecological sense. Parks and other public lands and waters are 
not just supporting our economy, they are supporting critical 
environmental needs. Pursuant to another National Park Service 
release today we know that national parks in the lower 48 
states absorb 14.8 million metric tons of carbon dioxide each 
year with an economic value of about $582 million. In LWCF 
conservation easements have also protected water sources, 
species and ecosystems.
    At Leslie Canyon National Wildlife Refuge in Arizona, 
through a years-old public/private collaborative effort, the 
Fish and Wildlife Service has partnered with the Bar Boot Ranch 
to place over 13,000 acres of working land under conservation 
easement. The ranch and the refuge are working together to 
ensure survival of native fish and wildlife on public and 
private land by protecting the upstream reaches of the Leslie 
Creek Watershed while also helping sustain the ranching 
business operation at Bar Boot Ranch.
    Third, the Land and Water Conservation Fund makes fiscal 
sense. In times of tight budgets we must prioritize programs 
which successfully reduce management costs and can be 
administered in partnerships across the country. To date, the 
Land and Water Conservation Fund has provided over $4 billion 
to state and local governments for these purposes and over 
40,000 projects have been funded in every state throughout the 
nation in 98 percent of the nation's counties.
    Of particular importance Federal land acquisition reduces 
land management costs. In the past five years 99.25 percent of 
the lands acquired by the Department of the Interior were 
inholdings within the external boundaries of existing 
conservation units. The acquisition of inholdings can reduce 
maintenance and manpower costs by reducing boundary conflicts, 
simplifying resource management activities and easing access to 
and through public lands.
    As an example in the '16 budget the Administration proposed 
Land and Water Conservation funding for acquisitions at 
Alaska's Lake Clark National Park and Preserve, that are 
expected to yield significant savings over time from reduced 
firefighting costs associated with native allotments. The 
National Park acquisition of these tracts would eliminate the 
requirement to commit firefighting resources to suppress fires 
on these tracts and would yield an estimated savings of $60,000 
per tract during each firefighting season.
    Finally, LWCF is important for future generations. A half 
century ago Congress made a historic commitment to the American 
people. As a result we have irreplaceable natural, historic and 
recreational outdoor places that otherwise might not exist or 
might have been lost. To try and explain the end of the Civil 
War without the Appomattox Courthouse or the sacrifice of those 
who gave their lives on Flight 93 would be impossible without 
the LWCF. To share with future generations the grandeur of 
Acadia, the Tetons or the Great Smokey Mountains could not have 
been maintained without the LWCF.
    The importance of this funding cannot be overstated. We 
live in an era when people, especially young people, are 
increasingly disconnected from the outdoors and history. 
Maintaining our vitality as a nation relies in part on more 
opportunities for outdoor recreation and more green spaces, 
particularly in urban areas.
    Some may argue that spending $900 million on recreation and 
conservation is a luxury we can't afford. In reality we can't 
afford not to. Outdoor recreation is a huge economic engine 
that contributes an estimated $640 billion to the nation's 
economy and supports 6.1 million jobs which also translates to 
increased tax revenues at all levels of government.
    For all these reasons and more this Administration strongly 
supports reauthorization. And we look forward to working with 
Congress before the program expires at the end of this year.
    Thank you.
    [The prepared statement of Mr. Connor follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    The Chairman. Thank you, Mr. Connor.
    Mr. Ledford, welcome.

   STATEMENT OF LEWIS LEDFORD, EXECUTIVE DIRECTOR, NATIONAL 
              ASSOCIATION OF STATE PARK DIRECTORS

    Mr. Ledford. Good morning, Madam Chairman, Senator 
Murkowski, Ranking Member Cantwell and members of the 
Committee. Thank you for the opportunity to testify today. I am 
Lewis Ledford, the Executive Director of the National 
Association of State Park Directors and prior to that served as 
the State Park Director in North Carolina and also the State 
Liaison Officer for LWCF.
    America's state parks provide wonderful outdoor recreation 
experiences and unique historical, scientific and environmental 
education opportunities. There are some 2,200 state parks and 
over 10,000 areas in our country when you consider all the 
recreation, natural and historic sites. Further they encompass 
18,000,000 acres and include numerous facilities including over 
217,000 campsites.
    LWCF has been a key reason for this vast diversity of 
intense public recreation and accounting places from the 
expansive mountainous landscapes in Alaska to a coral reef in 
Florida to the longest stalactite in the world in an Arizona 
cavern to locations where the European settlers first came to 
America. The splendor of the beauty of the mosaic of the 
natural resources and the cultural fabric of America are the 
reasons that 739,000,000 people visited the state park systems 
last year. The economic impact of our state park system is 
estimated to be $20 billion annually.
    Congress enacted LWCF visionary legislation. It's forward 
thinking in reinvesting back in the conservation and 
recreation. From open space greenways to trails to playgrounds 
to swimming pools, camping facilities, ball fields, state-
assisted funding has benefited 98 percent of the counties in 
the country.
    The state's ability to access local decision makers like 
governors, commissioners, city managers and most importantly 
the soccer moms, the users, the skateboarders, the mountain 
bikers and their friends' groups are crucial to ensure that the 
needs of each state and local community are met.
    The state assistance funds must be matched on a 50 percent 
level. It's a tremendous fund raising tool for communities that 
reach out to many partners, a formal allocation of the funds on 
an equal basis to all states and territories. State agencies 
are well positioned with good planning and management for LWCF 
projects because they're well connected with their communities.
    They're wonderful examples in the 42,000 projects from the 
City of Bremerton, Washington where they restored the beauty of 
a park on the Puget Sound Waterfront to the city of Bethel in 
Alaska where they provided park improvements for Pinky's Park, 
a Native American community of 6,300 people accessible only by 
river and by air.
    The LWCF Act was designed to create close to home 
recreation opportunities. Priorities continue to justify those 
needs for state and local level; however, in 1976 a change was 
made to remove the 60 percent funding guarantee for the State 
Assistance Program. In 1998 the program was expanded to allow 
for spending for related purposes.
    Since Fiscal Year 2004 the state portion of the program has 
averaged only 12 and a half percent of the total appropriation. 
The charts and the table that I provided in my written 
testimony readily show the impacts of these changes.
    Restoring the state share consistent with the original 
intent of the legislation would mean more spent on close to 
home recreation and on priority projects determined by the 
state agencies in a transparent process, who well know what 
their constituents want and need in terms of outdoor 
recreation. While not every community has a wonderful national 
park, every community has outdoor recreation resources. State 
and local parks are used by people of all ethnic groups, all 
income levels, all abilities and all ages on a daily basis 
throughout the year.
    The National Association of State Park Directors therefore 
supports the reauthorization of LWCF with full and dedicated 
funding and equitable allocation up to 60 percent such as in 
the original permit or establishment of the law. It supports 
the use of state funds for renovation, restoration and 
facilities and stewardship of the recreation areas. It also 
supports the reevaluation of the state's 6(f) conversion 
obligation. And it would also encourage addressing the 
percentage relative to the citizens living in the urban and the 
rural areas.
    In 1965 the U.S. population was 194,000,000. Today it's 
estimated to be 321,000,000. State and local outdoor recreation 
opportunities and demand continue to be there. We need to 
address the population and provision for these shifting 
demographics and increases. Reauthorizing LWCF with a balanced 
and equitable funding will have great impact today and for 
future generations in meeting the purposes of the original act.
    Madam Chair Murkowski, Ranking Member Cantwell and members 
of the Committee, thank you for this opportunity to speak with 
you this morning. We appreciate your consideration for the 
support of America's state and local parks, the largest chain 
of wellness and economic drivers on the planet.
    Thank you.
    [The prepared statement of Mr. Ledford follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    

    The Chairman. Thank you, Mr. Ledford.
    Ms. Scarlett?

 STATEMENT OF LYNN SCARLETT, MANAGING DIRECTOR, PUBLIC POLICY, 
                     THE NATURE CONSERVANCY

    Ms. Scarlett. Chairman Murkowski and Senator Cantwell and 
all members of this Committee, thank you for inviting me to 
testify.
    The Nature Conservancy, where I now direct public policy 
globally, has over 60 years of pioneering private conservation 
in cooperation with agencies and thousands of private 
landowners across this nation. I've had the opportunity to meet 
many of you during my nearly eight year tenure at the 
Department of the Interior in the George W. Bush 
Administration.
    Madam Chairwoman, Secretary Cantwell and other members on 
this Committee, I appreciate your leadership in striving to 
address the conservation and resource management needs of this 
nation.
    The Land and Water Conservation Fund over these past 50 
years has helped our nation address many conservation and 
resource management challenges, Federally, in states and 
locally. Three issues point to why LWCF is as relevant today as 
it was 50 years ago.
    First is the role public lands play in enhancing economic 
well being. Second is the role the Land and Water Conservation 
Fund plays in improving the capacity of public land managers to 
manage these lands effectively and efficiently. Third is the 
role the Land and Water Conservation Fund plays in helping 
maintain the very natural systems upon which all life depends. 
Watersheds, for example, store water and keep it clean. Coastal 
systems can reduce impacts from coastal storms.
    Let me turn first to economic benefits. Many analysts have 
documented the direct economic benefits of Federal and State 
public lands through, for example, outdoor recreation 
opportunities. These benefits are important, but they are just 
a drop in the overall economic benefit bucket. Increasingly 
this nation has become what economist, Ray Rasker, refers to as 
a knowledge-based economy of finance, marketing design and 
management.
    As this shift occurs Rasker notes, and I quote, ``The bulk 
of economic value of public lands lies in its ability to 
attract people and their businesses who want to live near 
protected lands for quality of life reasons.''
    Let me turn now to the issue of efficiency. Concerns about 
future land investments arise in the context of significant 
maintenance backlogs both on Federal and State lands. I 
appreciate these concerns. During the Bush Administration I 
spent hundreds of my personal hours on this issue.
    The Land and Water Conservation Fund complements sound 
public management. In many cases LWCF investments actually 
contribute to management efficiencies. One example illustrates 
how continued acquisitions of this sort can improve that 
efficiency. At Mount Rainier National Park, for example, LWCF 
funding allowed for purchase of lands enabling a campground to 
be relocated out of an expensive and flood prone area in which 
flood maintenance costs for a single year were $750 million.
    I now turn to the third benefit of continued LWCF 
investments. I want to draw the Committee's attention to the 
broad role that nature and natural systems play in sustaining 
thriving communities. I sometimes sum up those benefits by 
saying nature is not just nice it is essential. I have already 
noted that watersheds help store water and sustain clean water 
supplies. Protecting coastal systems can also contribute to 
coastal community's safety.
    Consider for example investments in Massachusetts in the 
Silvio O. Conte National Wildlife Refuge, a refuge contiguous 
with the area's watershed. Land acquisitions there contributed 
to the goals of the Massachusetts Water Resources Authority 
which has avoided the need to build a $250 to $350 million 
filtration plant because of implementing a water supply 
improvement program that includes investment in protection of 
watershed lands.
    It also contributes, of course, fundamentally to sustaining 
water quality for communities within the watershed. In the 
Cascades the Land and Water Conservation Fund supported land 
acquisitions that are also contributing to water retention and 
storage.
    No brief testimony can do justice to 50 years of results 
that the LWCF has generated for the American public, but as we 
look to reauthorizing it we need to ask some basic design 
questions as Chairman Murkowski did.
    Let me suggest three design principles.
    First is program flexibility. It is important as 
circumstances vary by location and over time. Maintaining 
flexibility in the statute itself while preserving annual 
congressional authority to review and approve how funds are 
allocated best aligns with the realities of annual variations 
in needs.
    Second, dedicated funding.
    The third principle, enhancing public access to outdoor 
recreation. I appreciate the opportunity to testify, and I look 
forward to working with the Committee and Madam Chairman, as 
you consider reauthorization of the Land and Water Conservation 
Fund.
    Thank you.
    [The prepared statement of Ms. Scarlett follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    The Chairman. Thank you, Ms. Scarlett.
    We will now go to Mr. Watson.
    Thank you.

  STATEMENT OF REED WATSON, EXECUTIVE DIRECTOR, PROPERTY AND 
                  ENVIRONMENT RESEARCH CENTER

    Mr. Watson. Madam Chair Murkowski, Members of the 
Committee, thank you for the opportunity to testify today on 
potential reforms to the Land and Water Conservation Fund.
    My name is Reed Watson. I'm the Executive Director at PERC, 
the Property and Environment Research Center, in Bozeman, 
Montana. I'm also an avid outdoorsman and frequent visitor to 
our Federal lands. Indeed, just this past Sunday I was bear 
hunting in the Gallatin National Forest, unsuccessfully, I 
might add, or successfully if you're a bear.
    My testimony today will focus on the critical importance of 
maintaining the quality and accessibility of our Federal lands 
and not sacrificing that quality or that accessibility by 
unsustainably increasing the size of the Federal estate. The 
growth of the Federal estate funded largely by LWCF has 
outstripped the operations and maintenance budgets of our 
Federal land agencies.
    As a consequence the total deferred maintenance backlog at 
the Department of Interior currently exceeds $20 billion, as 
Chair Murkowski noted. The Park Service alone carries a 
maintenance backlog of $11.5 billion. National Park Service 
Director, Jonathan Jarvis, summarized the issue aptly in his 
March 17th testimony before the House Subcommittee on Federal 
Lands, as he said, ``Americans love and are rightly proud of 
their national parks but too often they're greeted by 
facilities in disrepair instead of a seasonal ranger ready to 
answer their questions.''
    Let me share a few tangible examples of a deferred 
maintenance issue taken from the National Park Service's own 
2016 budget proposal. In Grand Teton National Park sewer system 
upgrades are needed immediately to prevent raw sewage from 
spilling into the park's rivers. In Glacier National Park a 
failing electrical system poses fire and public health safety 
concerns in the park's historic hotels. And in Yosemite 
National Park a deteriorating water distribution system is 
leaking thousands of gallons of chlorinated water each day into 
the Mariposa Grove threatening the Park's ancient stands of 
giant Sequoias.
    Unfortunately the issue of deferred maintenance is not 
limited to the national parks. The Forest Service has 
approximately $5.5 billion in deferred maintenance, of which 
$1.4 billion is critical, meaning it poses a serious threat to 
public health or safety and natural resource or the ability of 
the agency to carry out its mission. The majority of that 
critical deferred maintenance is needed for roads, meaning the 
public can't safely access much of our existing national 
forests.
    And this deferred maintenance issue is not just about roads 
and bathrooms. The deferred maintenance backlog at the U.S. 
Fish and Wildlife Service directly threatens habitat. Across 
the entire Federal estate, particularly out West, billions of 
dollars are needed for waste water system repairs, campground 
and trail maintenance, building repairs and the transportation 
infrastructure necessary for public access.
    Ignoring the deferred maintenance issue threatens the 
environmental health of our Federal lands as well as the 
quality of the experience when we visit them. If we were to 
liken the Federal estate to a house, we would find a crumbling 
driveway, a leaking roof, rusted pipes and a failing septic 
system. But strangely enough rather than devoting the time and 
money to those essential repairs, the owner of the house is 
considering an addition. A private banker wouldn't lend money 
for such an addition and likewise Congress should not 
appropriate additional funds for Federal land acquisition until 
we address the deferred maintenance backlog. That is, until we 
get our house in order.
    Reauthorization of the LWCF presents an opportunity for 
Congress to get the Federal estate in order. First, we must 
clarify that maintenance counts as a related purpose for which 
LWCF funds can be used. And second, I would urge you to 
consider prioritizing the allocation of LWCF funds for 
maintenance before we devote additional funds to land 
acquisition and stretch our already too thin budgets further.
    To be sure, at its current funding level of $900 million 
annually, the LWCF is not sufficient to address the entire 
maintenance backlog alone. And relying exclusively on 
congressional appropriations to address these needs has not, 
unfortunately, been a prodigal policy solution in the past.
    User fees are also needed to address the deferred 
maintenance backlog, and our Federal land managers must be 
allowed to retain most of those fees onsite. Doing so would 
align the incentives of land managers and land users, and would 
help land managers determine which maintenance projects are the 
most critical to our Federal land visitors.
    As conservationists on this 45th Earth Day and with the 
National Park Service Centennial coming up next year, we should 
acknowledge the inherent tradeoff between acquiring more lands 
and conserving what we've got. Stewarding as Ranking Member 
Cantwell mentioned what we've got.
    With more than 640,000,000 acres now under Federal 
ownership and a ballooning maintenance backlog on those lands, 
spending nearly $1 billion each year to acquire more lands is 
not responsible land conservation. We should all remember that 
the LWCF is the Land and Water Conservation Fund, not the Land 
and Water Acquisition Fund.
    As my father told me growing up, if you ever find yourself 
in a hole, the very first thing you do is stop digging. It's 
time to stop digging.
    Thank you again for the opportunity to testify. And I look 
forward to your questions.
    [The prepared statement of Mr. Watson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    The Chairman. Thank you, Mr. Watson.
    Thank you, each of you, for your testimony this morning.
    I want to, kind of, take your comments, Mr. Watson, and 
kick this over to the Deputy Secretary, Mr. Connor, because I 
think you have articulated it well. We are at a place where our 
Federal Government managers have approximately 640,000,000 
acres under Federal management. That is nearly 30 percent of 
the United States of America, which is significant.
    I think we would all agree on this dais here that our 
public lands, our lands in this country, are treasures. We do 
have a responsibility, a stewardship responsibility, to them. 
How we address this is the crux of what we are dealing with 
here today.
    When we were looking through the history of LWCF and 
recognizing that this was enacted 50 years ago and when the 
bill was moving through the process, the Senate version of the 
bill originally had development in it. It is my understanding 
that they dropped that in conference because there were some 
who felt that there was this urgency to acquire lands before 
either the values skyrocketed or they were privately developed.
    Since LWCF was enacted we have had 104,000,000 acres in 
Alaska added through ANILCA and nearly 5,000,000 additional 
acres aquired with LWCF. Again, Alaska has about 30 percent of 
the United States acreage.
    The question I think that we are dealing with is do we keep 
adding to that land bank without focusing on the responsibility 
for management and maintenance of what is contained within that 
bank? At what point, Mr. Connor, should we start taking care of 
what we already own rather than the continual focus on 
acquisition? As Mr. Watson reminded us, this is the Land and 
Water Conservation Fund, not the Land and Water Acquisition 
Fund.
    At what point do we say we have to put a priority on the 
maintenance and the backlog?
    Mr. Connor. Thank you for the question.
    I think that is the question we should be asking. Are we 
merely adding to the Federal estate through the Land and Water 
Conservation Fund, the acquisition side of it, or what purposes 
are our acquisitions for?
    As I mentioned in my testimony 99.25 percent of the 
acquisitions in the last five years have been within the 
exterior boundaries of conservation units. And I think what we 
are trying to accomplish with respect to that is we're trying 
to certainly add to the conservation value, to connect habitats 
but that eases overall management. We're addressing 
inefficiencies in our management, as I mentioned with respect 
to our inholdings and the fact that that drives up fire 
suppression costs.
    The Chairman. At some point don't you run out of these 
inholdings that will allow you to have continued efficiency?
    I understand what you are saying. I think we are all 
agreeing here, but at what point do we say we have an 
obligation, a financial obligation and a stewardship 
obligation, to care for these lands that we have now under our 
Federal management?
    Mr. Connor. Absolutely, we do. But I don't think the choice 
is do we address the deferred maintenance issue within the 
National Park Service and other land management agencies. Is 
that a competition with the Land and Water Conservation Fund?
    I think the Land and Water Conservation Fund improves 
management, improves our ability to meet state priorities. It 
has a lot of conservation benefits. It's a necessary program to 
address a lot of needs both for Federal land management 
agencies, but also for state and local priorities.
    Deferred maintenance is a very real issue, and I think we 
share the view that that is a serious issue that needs to be 
addressed. Our budget----
    The Chairman. But how----
    Mr. Connor. Also does that through a separate mechanism.
    The Chairman. How are we proposing then to do that because 
the Administration is seeking to turn LWCF into a permanent 
mandatory-funded program? How do we do that?
    So far as I know, we have not identified any offset which 
is an issue here when we are dealing with CBO scoring. How do 
we ensure that, in fact, we have in place the means to address 
this because LWCF is not a true trust fund here? It has always 
been subject to appropriations. You acknowledge that there is a 
need to address it, but what we have not seen is how we 
effectively pay for it.
    Mr. Connor. Well, there are, overall in the budget as we've 
talked about in our budget hearing, there are offsets in the 
overall budget for both the mandatory funding request for Land 
and Water Conservation Fund and the specific initiative we have 
within the Park Service budget to address the deferred 
maintenance issue.
    Two hundred forty-three million dollars in the '16 budget 
specifically through the discretionary appropriations process 
to address deferred maintenance issues, plus $300 million in 
mandatory funding for a three-year period, each year for a 
three-year period, to address that deferred issue----
    The Chairman. But I think we----
    Mr. Connor. In association with the National Park 
Centennial with our goal is to take those highest priority 
assets, that $2.2 billion that we've identified as our highest 
priority, non-transportation assets, and get them in good 
condition over a ten-year period intended to address the 
deferred maintenance issue. So we have offsets in the overall 
budget that provide for both the Land and Water Conservation 
Fund mandatory request and the deferred maintenance issue with 
the Park Service budget.
    The Chairman. But I think we recognize that the identified 
offsets that you have come up with are probably offsets that 
will not be acceptable within this Congress.
    So where do we start?
    Let us go to Senator Cantwell, and I do not know whether 
votes have been called, but as members come and go we will just 
keep moving.
    Senator Cantwell. Thank you, Madam Chair.
    And I would like to continue on this dialog because I think 
it is an important one, particularly with the anniversary of 
the national parks coming up and the question of what we want 
to do to improve our park system in recognition of where we 
have been over the last 100 years. But I just want to be clear 
because I think just because the name of it is The Land and 
Water Conservation Fund, I am okay with changing the name to 
put the name acquisition in there. It is clearly in the 
statute, reading from the statute, that the purpose of this is 
for the acquisition of lands, waters, or interests in land and 
water as follows. So it is clearly in the Act. That is what is 
authorized. That is the purpose of it, so the Act is not just 
to theoretically conserve.
    I do think that the backlog issue is a real issue. Now I 
have ideas that I think that we should do the roadless area 
rule and take care of backlogs at the same time, set aside what 
we are not going to do because it is in an unattractive part 
from the perspective of actual timber harvest, and then make 
investments in areas where we do have backlog. But to blame the 
entire Federal system backlog on the Land and Water 
Conservation Fund I just think is not the right direction. We 
have got to own up to what our obligations are, to improve our 
Federal lands and continue to see areas in which Federal land 
acquisition might be done.
    So with that, Ms. Scarlett, you have been involved in these 
issues from two different perspectives, your role in the 
Department of Interior during the Bush Administration and now 
your position with The Nature Conservancy. In fact, I would 
like to say that some of the best environmentalists on the 
Republican side of the aisle usually come from previous 
Administrations who then decide that those were the right 
policies. There are many Republicans who push Presidents, who 
push great land policies, and I certainly want us to look at 
this as a bipartisan effort.
    But what can we do to make sure that we have land and water 
acquisition and also take care of maintenance?
    Ms. Scarlett. Thank you, Senator. I want to offer several 
points on this.
    Looking at the backlog issue I think we first have to look 
at its composition. So about half of it is roads and I think 
appropriately we should be looking in the transportation 
reauthorization at addressing some of those challenges.
    Secondly a not insignificant portion actually comes from 
disasters that have occurred and in which emergency 
supplemental funding has not covered the responses on Federal 
public lands and so including when those emergency supplemental 
approves funding to actually address those will also help.
    But I want to get to a much more important and central 
issue which is I think the remedy to the maintenance backlog 
really needs to be tied to ways that reinforce sound agency 
management. I think the Fish and Wildlife Service offers a 
recent example. They've actually decreased their maintenance 
backlog by about half in just a few short years. And they did 
that first by clearly characterizing those assets that needed 
repair and replacement. Second by prioritizing and recognizing 
that everything on the list didn't really need to be addressed. 
A remote, unused or seldom used, for example, road might have 
been on the list doesn't really need repair. So they set clear 
priorities, management discipline and then struck out to 
actually, within the appropriated annual budget, address them. 
I think the other agencies can similarly do the same.
    I want to make another point. I spent so many hours on this 
issue during my time at Interior, and one of the things we did 
was to actually look at industry standards. The backlog itself 
is a little bit misleading because even in the private sector 
there's always a backlog. What you want to do is to keep that 
backlog less than ten percent of your capital asset replacement 
cost. Fish and Wildlife Service now has its backlog down to 
four percent, well within that industry best practice.
    Other ways to address it? Recreation fees and keeping them 
onsite, extraordinarily important.
    And then I'll conclude with another remedy. Increasingly 
The Nature Conservancy, when we partner in Land and Water 
Conservation Fund efforts, brings some matching philanthropic 
funds to the table and actually create some endowments that can 
actually contribute to some management of those lands.
    So I think there's a lot of remedies here that are worth 
exploring.
    Thank you.
    Senator Cantwell. Well, Mr. Connor, what about that, 
looking at percentages and looking at various tools that would 
help for each of the individual backlogs? I mean, I think we 
should at least all come to an agreement as members of this 
Committee. Believe me, we are a very diverse group of people 
here, but we ought to just come to an agreement.
    What is the maintenance backlog within the Department of 
Interior? Let's put the number out there, and then we can 
decide what we want to do about it. But as I said, instead of 
blaming it all on the Land and Water Conservation Fund as the 
source for taking care of all the backlogs on Federal lands, I 
think we have to come up with other remedies.
    Mr. Connor. Well as a former Deputy Secretary I listen to 
Lynn as much as possible, and it's been good advice since she's 
been giving it, and I think she's giving some good advice 
today.
    I think she's absolutely right. If we look at the 
maintenance backlog, we quantify it. It is 11 and a half 
percent, I mean, $11.5 billion for the Park Service. It does 
approach $20 billion across the board, although that may 
include Bureau of Reclamation.
    There's always going to be some level of backlog, so we've 
got to separate and prioritize, and that's what we've done with 
respect to the Park Service, and that's what the Fish and 
Wildlife Service has done. So we've identified our highest 
priority, non-transportation assets. We do think the 
Transportation bill should be looked at.
    But there are these other programs, fees, as well as, 
particularly for the Park Service, the private, the 
philanthropic organizations, the National Park Foundation, 
which is stepping up with respect to the Centennial coming up, 
raising lots of private dollars because there is an interest in 
doing that. And we've got to marry up all these programs to 
deal with that overall deferred maintenance issue which has 
gotten a little excessive. It is a priority. We just don't 
think that that needs to compete with the LWCF.
    Senator Cantwell. Thank you.
    Thank you.
    The Chairman. Senator Daines?
    Senator Daines. Thank you, Chairman Murkowski and Ranking 
Member Cantwell for this hearing today.
    The natural resources in Montana are so important to 
driving our economy. Many, many Montanans make their living off 
the land whether it is agriculture, whether it is mining energy 
industries or, of course, showcasing really world class vistas 
in the public lands to visitors around the world.
    In fact I grew up in Bozeman. We are an hour away from 
Yellowstone National Park, literally 50 minutes away from 
public lands. It is really the heart of where Brad Pitt and 
Robert Redford created fly fishing in a movie called, ``A River 
Runs Through It.''
    Having said that we built a software company there that had 
1,000 employees and in part because people enjoy the quality of 
life in Montana and now that technology has moved, geography is 
a constraint. It was really our access to the lands and the 
amazing quality of life we had. It was an important driver to 
creating a business that capitalized nearly $2 billion. In fact 
our recruiting website was, I love it here, dot com, to get new 
employees.
    So with that as background and my support certainly for 
LWCF I want to address my first question to Ms. Scarlett.
    Thank you for being here today. The Nature Conservancy has 
used LWCF very well in Montana. I am hoping you can address 
some of these concerns that it's solely to increase the Federal 
estate.
    It is my understanding that a majority of the projects in 
Montana are in fact addressing the checkerboard nature of 
ownership inholdings, easements that actually increase access 
to public lands, improve land management and ensure that our 
multigenerational farmers, ranchers even, stay working on the 
lands.
    Could you expand on how LWCF is used in Montana?
    Ms. Scarlett. Yes, thank you, Senator.
    You're absolutely right. Increasingly we are seeing, 
especially through the Forest Legacy Project, as part of the 
Land and Water Conservation Fund, the use of both conservation 
easements so one sustains working lands, but also acquisition 
of checkerboard lands that in some instances actually make 
access difficult.
    A couple of projects, I'll flag the Trumbull Creek 
watershed project in Montana, a Forest Legacy project. That was 
an easement. It yielded jobs, protected drinking water and 
sustained access.
    Another major one, The Nature Conservancy, has been 
involved in was the Montana Legacy Project, an enormous 
project, also many, many partners, working with Plum Creek 
Timber Company on some 310,000 acres of land. Again, one of the 
key goals was sustained access but also keeping lands 
contiguous and therefore better able to be managed.
    Senator Daines. Yes, and on that issue of access. In 
Montana we have approximately 2,000,000 acres of public land 
that are inaccessible to the public. Access to public lands for 
outdoor recreation is such an important way of life for us. It 
really distinguishes, I think, America from virtually any other 
country in the world in terms of what we have here, that the 
average, hardworking, middle-class Montanan has access to 
lands.
    How was LWCF used in Montana to improve the sportsmen 
access to existing Federal lands?
    Ms. Scarlett. Yes, absolutely.
    Again, I want to flag the Forest Legacy Project Program 
because it has particularly focused on trying to enhance that 
access along with improving forest management, and so the vast 
majority of those projects actually go very specifically toward 
enhancing access or at least having that as a component.
    Again, in some instances where you have private lands which 
we all celebrate, of course, they also make it difficult in 
some instances to access some of the premier fishing areas, 
hunting areas, that are on the public lands. Again, one of our 
goals with The Nature Conservancy in addition to, of course, 
meeting our habitat conservation goals has also been to help 
ensure that access to, after all, the hunters and fishers who 
are among our greatest conservationists.
    Senator Daines. Thank you, Ms. Scarlett.
    Mr. Connor, I have a question for you. Certainly in Montana 
we understand that management of Federal lands must be 
improved, and we also are very aware of the current budget 
constraints and increasing appropriations for maintenance of 
existing Federal lands is a real challenge that we have already 
heard some debate here today.
    Could you expand further on how you see how LWCF has 
actually created cost savings within the Federal agency's 
budget and how LWCF can make Federal land management more 
effective and efficient?
    Mr. Connor. Absolutely, Senator Daines. Thanks for the 
question.
    One example is a specific Montana example that we have in 
the Lolo National Forest which had a very significant fire that 
rapidly spread in 2013 and became a high priority area during 
the firefighting season. Of great concern during that fire were 
a number of inholdings, and it was a particularly checker-
boarded area. And from that standpoint there were increased 
firefighting costs associated with protecting those inholdings. 
There was concerns about that situation being exacerbated 
because of the Wildland Urban Interface that could exist there 
if those properties were developed.
    So in the aftermath LWCF was used to acquire a number of 
those parcels which, I think, the Forest Service identified as 
a very high priority to ease firefighting suppression costs. 
And that's one example.
    And just overall it's been estimated that about 13 percent 
of those inholdings that are the Wildland Urban Interface are 
developed at this point in time and do have properties and 
structures within them. If that was expanded at just 50 percent 
of those parcels, the Forest Service estimates that that would 
eat up the vast majority of their suppression budget in any 
particular firefighting season.
    So it's a real concern about, how do we reduce costs, but 
also how do we avoid costs in the future?
    Senator Daines. Okay, thanks, Mr. Connor.
    The Chairman. Senator Heinrich?
    Senator Heinrich. Thank you, Madam Chairman.
    Mr. Watson cited a figure, I think it was $11.5 billion, 
that is the maintenance backlog at the National Park Service. I 
would remind all of us that roughly half of that backlog is the 
responsibility of the Department of Transportation and state 
transportation agencies. I think we need to take that portion 
of the backlog seriously, but the way to address that backlog 
should be to get very serious about passing a transportation 
reauthorization bill that actually includes a sustainable and 
long-term funding source to address that backlog. Blaming LWCF 
for that backlog really misses the point. LWCF is a program 
that works. If everything in government worked as well as LWCF 
we would have a lot of time on our hands. We, as the Congress, 
have created the backlog, and we should address that 
shortcoming through the appropriations process.
    In addition, I want to point out the fact that we only get 
to sell oil and gas once. We lease a lot of oil and gas in the 
State of New Mexico, but our oil and gas reserves, including 
these reserves offshore that fund LWCF, are depleteable assets. 
Once we spend the revenue from them, it is gone. That is why 
LWCF was set up to make permanent investments in conservation 
and recreation, not just pay for regular operations. So when we 
sell our energy reserves they should be invested in some sort 
of permanent investment in conservation, not for routine 
operations and maintenance.
    I hope we remember that if this program was as broken as 
some would suggest, I seriously doubt that LWCF reauthorization 
would have gotten 59 votes on the floor of the Senate as it did 
just a few weeks ago.
    So with that, Secretary Connor, I want to ask about 
something you know a little bit about, something about which is 
water. As you know water is one of the most economically, 
culturally important resources that we get from our public 
lands, particularly in the Southwest in places like New Mexico. 
In fact, almost half of our surface water comes from our 
national forests.
    In Taos County the county commissioner requested that the 
Carson National Forest purchase a property that was up for sale 
because development on it would threaten drinking water 
supplies for the Town of Taos and surrounding communities. Can 
you talk a little more about what LWCF does in terms of 
protecting water supplies for communities and farmers across 
the country?
    Mr. Connor. Thank you, Senator Heinrich.
    And yes, and particularly these days with the dramatic 
droughts going on in the West and just the fact that the water 
resources are most affected by increasing temperatures, most 
immediately, we notice the impact on water resources. There is 
a renewed focus within the LWCF to specifically look at 
investments that protect watersheds. And I'll be sure to go 
back and look at the Carson National Forest example that you 
mentioned.
    But two examples. As I mentioned in my verbal comments, the 
Leslie Canyon National Wildlife Refuge and 13,000 acres of a 
conservation easement and a ranch there. They specifically 
highlighted four watershed protection purposes. It has other 
benefits. It keeps working lands in production. It helps 
facilitate the financial aspects of that operation. But that is 
one of the most stunning examples of where watershed protection 
is the highest priority and to restore, work with the ranch and 
restore the landscape, improve the health of the overall 
watershed and the yield that it has overall.
    Great Sand Dunes National Park, the headwaters of the Rio 
Grande in Colorado, is another example where we are 
prioritizing acquisitions. I think in the budget there's a 
5,000 to 6,000 acre parcel which is just part of a number of 
inholdings intended to particularly protect that watershed.
    Senator Heinrich. Those are great examples, and I want to 
thank Senator Daines for bringing the issue of access up as 
well.
    One of the ways that the Land and Water Conservation Fund 
has been used in recent years that is really critical from a 
local economic viewpoint is being able to purchase easements 
whether it is into a water course, a river that does not have 
fishing or boating access, whether it is getting access into 
these isolated pieces of public land that over time have been 
surrounded by private property.
    Can you talk a little bit about how the Department of 
Interior is using Land and Water Conservation Funds to leverage 
the outdoor recreation, hunting and fishing economy by getting 
access to places that the public already owns?
    Mr. Connor. Absolutely.
    I think, just quickly, this is an area where I think the 
Administration has plowed new ground with respect to the Land 
and Water Conservation Fund assets which is the use of 
conservation easements and the use of funding for particularly 
access for hunting, fishing. And so there's a number of 
examples in Colorado on the Yampa River, the Niobrara Scenic 
River, the North Platte Special Management Area in Wyoming, 
where the focus has been access to the river for fishing as 
well as hunting access, particularly in the Yampa River in 
Colorado.
    It's been a high priority. It's a continued need that we 
hear more, and it's one of the refinements. I think you 
mentioned, Chairman Murkowski, that we do need to look at 
access more and more, and I think that's appropriate.
    Senator Heinrich. And to give credit where credit is due 
there is a Sportsmen's Act that Senator Murkowski and I are 
working on. It does attempt to address this very issue which is 
critical for many, many Western states.
    Thank you, Madam Chair.
    The Chairman. Absolutely, I appreciate you bringing that 
up, Senator Heinrich.
    One thing that you mentioned though that I would agree with 
you on is we have got to deal with this aspect of the 
maintenance backlog as it relates to the roads within our 
public lands and how we deal with that, but it is my 
understanding that that responsibility is still on the Federal 
side, not kicked over to state DOT. There has been some 
argument about that, but it is still on the Federal side of the 
ledger, and that is why it tips it so out of whack.
    I am going to dash off and vote. Senator Barrasso will be 
up next. I know that there are a whole host of other members 
that will be back, so again, we will be jumping up and down.
    Senator Barrasso [presiding]. Thank you, Madam Chairman.
    Mr. Connor, recently this Committee has received letters 
from the National Recreation and Park Association, the National 
Association of State Park Directors and the National 
Association of State Outdoor Recreation Liaison Officers. I am 
going to submit those letters for the record. Obviously there 
is nobody here to object, so they are part of the record now. 
[Laughter.]
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. I might put a couple other things in too.
    [Laughter.]
    Senator Barrasso. As part of the Land and Water 
Conservation Fund reauthorization, all of these organizations 
are seeking a more fair and equitable share of the LWCF funds 
for states and local communities. The original 1965 Land and 
Water Conservation Fund law which Secretary Jewell has called a 
landmark law provided for 60 percent, 60 percent, of the 
funding to go to the states. According to the National 
Association of State Park Directors in recent years the state 
side portion has averaged just over 12 percent. I do not think 
anyone would say that 12 percent is fair and equitable, 
especially when the original intent was 60 percent. So can you 
talk a little bit about what you think is a fair and equitable 
percentage for the states that the Administration would support 
as part of reauthorization?
    Mr. Connor. Yes, Senator, thank you for the question.
    I do acknowledge, I think, absolutely you're correct with 
respect to the original intent of the act. I believe that was 
changed by a subsequent amendment. But the question is still 
valid. What is the appropriate mix between Federal dollars and 
State dollars?
    We look at it a little differently with respect to the 
state side allocation. It's more than just the state side 
program itself which, I think, is out of the $900 million 
request in our 2016 budget, $100 million is identified for the 
state side program which then gets allocated to states pursuant 
to a formula--40 percent to every state and 60 percent based on 
population and etcetera.
    We look at the allocation in our budget as being actually 
60 percent going to the Federal side and 40 percent to the 
State side because we look at the grant programs that have been 
developed, the Cooperative Endangered Species grants, the 
Forest Legacy Program, the National Park Service Urban Parks 
and Recreation grants, as going directly to state or local 
entities for their priority conservation needs. In many cases 
it is for conservation easements or acquisitions that they do 
in addition to the parks and ball fields and the recreational 
areas that they develop as part of the state side program.
    So that 60/40 split is what we think we've been adhering to 
with respect to the program in recent years, and we think 
that's appropriate. With respect to the state side programs and 
the mix of grant programs, we think that gives us flexibility 
to deal with a lot of the state and local needs through those 
different programs and those priorities. So we think that's an 
appropriate allocation. We think that's working fairly well.
    Senator Barrasso. Thank you.
    Mr. Ledford, as a doctor I understand how important daily 
exercise is to a healthy lifestyle. In your testimony you touch 
on how state and local parks impact the health and wellness of, 
as you say, Americans in every community, every day. In your 
view why are state and local parks ideally positioned to 
increase the health and wellness of Americans every day?
    Mr. Ledford. What comes to mind is the breadth and depth 
and the locations of these around the country and where they're 
located. There's a study from the Charlotte/Mecklenburg area 
where the proximity of parks, if you're living within one half 
mile of a park or playground you're five times, as a child, to 
be more healthy. So I think there's a direct correlation with 
all the studies that are going on in today's society about the 
benefits of activities in the outdoors and the direct 
relationship.
    Senator Barrasso. Again Mr. Ledford, in Ms. Scarlett's 
testimony she talks about the economic benefits to communities 
with proximity to public land because it attracts people and 
their businesses. In your career with the North Carolina State 
Parks Department have you witnessed economic benefits or 
revitalization efforts in areas where biking paths or 
recreational facilities, playgrounds or other protected open 
spaces are provided?
    Mr. Ledford. Absolutely. Whenever we bought property or 
acquired parks or started new areas some of the property that 
we would later want to acquire for that property or that park, 
the value was increased because of the proximity. The values of 
the property go up because of the type of use and the 
facilities and the accommodations that we're providing.
    A local example in Mecklenburg County again was the $53 
million annually spent by the tourists that come to the parks 
and $3.9 million annual increased tax benefit to those property 
values going up just in Mecklenburg County alone in North 
Carolina.
    Senator Barrasso. So do you believe that returning to that 
original intent of the law to provide 60 percent of the funding 
for state purposes that that will lead to a greater economic 
revival in local, rural, as well as urban communities?
    Mr. Ledford. I think it would provide, Senator, a 
considerable increase to the local, states and local 
departments, and states to provide additional funds for that 
purpose.
    Senator Barrasso. Thanks.
    Mr. Watson, the testimony from the Administration and The 
Nature Conservancy argue additional land acquisitions increase 
public access, increase landscape health and increase 
conservation.
    Your testimony, Mr. Watson, about conservation goes in a 
different direction by saying conservation at its core is about 
the care and maintenance of the land. You believe acquiring 
more land would actually, as you say, do more harm than good 
and will threaten the ecological health and public 
accessibility and economic productivity of public lands.
    Can you talk about why you believe conservation is more 
closely aligned with addressing our deferred maintenance 
backlog than acquiring new lands?
    Mr. Watson. Thank you, Senator.
    I do. I wish Ranking Member Cantwell were here for this 
question because I do think there's a inherent tradeoff between 
acquiring more lands and maintaining the lands that we've got. 
And if my comments led some members of the Committee to believe 
that the Land and Water Conservation Fund was the exclusive 
driver of the maintenance backlog then I apologize. It wasn't 
my intent. Rather that, moving forward as we consider 
reauthorization of the act and the fund, that we consider how 
that money would best be spent. I think there is an inherent 
tradeoff between acquiring more lands and stretching the 
existing operations and maintenance budgets further, thinner.
    And to the issue of inholdings, I think there's perhaps 
legitimate claims to be made that acquiring those inholdings 
can reduce maintenance costs. But there's also another 
mechanism for doing that which is land swaps. Someone has 
mentioned the issue of checkerboarding, checkerboarded, I would 
say, exterior borders. And swapping some of those lands and 
interior holdings for land outside the Federal estate would 
actually be perhaps a more cost effective and more revenue 
neutral approach.
    Senator Barrasso. Thank you, Mr. Watson.
    Yesterday Secretary Jewell announced Federal grants to 
eight cities to establish or restore parks in outdoor 
recreation facilities in low income, disadvantaged 
neighborhoods. So I think that by highlighting these types of 
projects, projects that are typical of what states do with 
funding, I see this as an acknowledgement that we need a more 
robust and more fair state side program.
    Senator Cassidy?
    Senator Cassidy. Yes. Mr. Watson, great testimony.
    Mr. Connor, is it true that we are dumping chlorine into 
the river that is the water supply for those Sequoias?
    Mr. Connor. I'm not familiar with that.
    Senator Cassidy. Mr. Watson, do you have documentation of 
that now?
    Mr. Watson. It's actually from the Department of Interior's 
budget request for 2016. So, yes.
    Senator Cassidy. Wow, there is no way to prioritize that? I 
thought that Ms. Scarlett's comment was well taken. We need to 
prioritize. Ms. Scarlett spoke and I, again, good testimony, 
all of you, about ten percent being acceptable, sort of, this 
is the backlog. Fisheries has it down to four percent. Whatever 
standard Ms. Scarlett is using, you all know each other, so you 
must be familiar with that standard, I presume. What percent? 
If it is four percent for fisheries, what is it for the other 
agencies?
    Mr. Connor. I'm not familiar, off the top of my head, with 
where we are with the other agencies. I do think that's a good 
industry standard that we should be looking at. I'm happy to 
look at that for the record.
    [The referenced information was not received at the time of 
printing.]

    Mr. Connor. We've quantified. But as far as what percentage 
that is, I'm not quite----
    Senator Cassidy. What is the total budget of those agencies 
because you said there is a $20 billion backlog in the 
aggregate? So when you do back of envelope, if you will, if we 
knew their total budget? Now granted that would not be the 
total budget only for management. That would include personnel 
costs, etcetera. So do you know the total budget they have for 
all like, managing lands?
    Mr. Connor. Our budget overall for the Interior Department 
is about $12 billion.
    Senator Cassidy. You have got a $20 billion backlog. 
[Laughter.] That's over four percent. Ms. Scarlett, any 
comments on that?
    Ms. Scarlett. Yes, I want to clarify that number that I 
used, that is, the ten-percent standard is not of a total 
budget. What that is is an industry standard where you look at 
the costs of your maintenance backlog relative to your total 
capital asset value.
    Senator Cassidy. Thank you.
    Ms. Scarlett. So that's the figure, and I'm sure I could 
look at that in the Park Service.
    Senator Cassidy. Now Mr. Watson, you suggest that I 
implied, I forget if it is outright stated, that state park 
management has done a better job in terms of realizing the 
cost, etcetera, etcetera, all the nice little litany of things 
that were suggested that could be done better. The State of 
Alaska has done a better job with state parks in terms of, you 
name it, upgrading, maintaining, realizing dollar value from 
than has the Federal management. Do you have that information?
    Mr. Watson. Actually and this wasn't a staged question, but 
we do. PERC just released a report comparing management of 
State verses Federal lands because, as you are probably well 
aware, there's a growing lobby, I would say, to transfer some 
of the Federal estate to state management. So we started a 
research project to look at the economics of that transfer 
issue and what sort of management tradeoffs or differences we 
see between State and Federal management.
    And the results, the data, were overwhelming that states do 
a better job of managing their lands, partly it's because 
they've got a clear instruction as far as how those lands 
should be managed. But overwhelmingly I wouldn't say across 
every state park, but if you had to characterize, as we do in 
our divided lands report, which I'm happy to share with all the 
members of the Committee, the maintenance issue was much 
smaller and less pressing need for state lands than they are on 
Federal lands.
    [The referenced information was not received at the time of 
printing.]

    Senator Cassidy. So there is better maintenance on state 
lands?
    Mr. Watson. Correct.
    Senator Cassidy. That is interesting.
    Mr. Connor, any comments on that? It seems like we should 
be giving the parks to the states.
    Mr. Connor. Well, I think, as with all reports, we would 
certainly want to look at that and make sure it's an apples per 
apples comparison. I know that other folks have looked at the 
report, and I haven't, so I have no personal judgments on that, 
but I know they raised issues with respect whether it's a 
looking at a multiple-use mandate, how certain costs like 
firefighting costs have been dealt with in that particular 
report. So I think it's a piece of work that deserves to be 
looked at. And we're happy to do that and comment for the 
record.
    Senator Cassidy. Sounds good.
    [The referenced information was not received at the time of 
printing.]

    Senator Cassidy. Now next on the infilling. It is easy for 
me to imagine that some infilling could lead to the need for 
more infilling. That if you have something shaped like a U and 
then you begin, kind of, making a bridge it then becomes a 
circle, and now you have got to continue to buy within that 
circle. How much of the infilling leads to the need for more 
infilling, so to speak?
    Mr. Connor. Well, I think overall when we're acquiring 
inholdings within conservation units we do think that the more 
that you can acquire through the willing seller process, the 
more you're increasing your management efficiencies from all 
different standpoints.
    Senator Cassidy. I guess that is not my point. If you have 
an upside down U and then you, kind of, building a gap by 
building a bridge for whatever reason, between the bottoms of 
the U, now you have got a circle. So now you have got to spend 
another 99 percent of your money, if you will, on filling in 
the circle. I guess I am asking is, when we do this, knowing 
that it is contiguous, does it contribute to the 
checkerboarding or to the kind of vacuous nature or does it 
begin to fill in those that are hollow? Obviously we want to 
get out of having to spend 99 percent of our budget on 
infilling. So, thoughts?
    Mr. Connor. I think overall where we'll look at it--mostly 
it is a checkerboard as opposed to the circular situation. And 
we'll look at trying to strategically acquire those inholdings 
in a way that doesn't facilitate, ongoing. We want each 
acquisition to stand on its merit as improving management 
efficiencies as much as possible.
    Senator Cassidy. Okay, and just one more thing. Wiggle 
room, as in, overall, I agree with Senator Murkowski and with 
Mr. Watson. If we are not maintaining why are we acquiring 
more, and this is a compelling reason. If you could share with 
the Committee, kind of, the map of what you have done not to 
dispute, but just so I can understand. Oh, yes, here it is 
truly, completely coloring in, but every now and then we kind 
of bridge a gap.
    If you could do that, again, I say that not to dispute or 
to accuse, but just to understand.
    Mr. Connor. No, I think we've got some information like 
that that we'll be happy to provide to the Committee.
    Senator Cassidy. Thank you.
    [The referenced information was not received at the time of 
printing.]

    Senator Cassidy. I yield back.
    Mr. Connor. Absolutely.
    The Chairman [presiding]. Thank you, Senator Cassidy.
    I want to pursue a little bit more the discussion about 
state side verses Federal side because, as I mentioned in my 
statement, when LWCF was first established 50 years ago it 
seemed that there was a more directed congressional intent in 
terms of how the allocations would go. It seems that we have 
really deviated from what that original intent was.
    Mr. Ledford, you have suggested a specific allocation to 
states. I do not remember if you said 60 percent or over 60 
percent should be allocated then to state side. To effectively 
put that in more concrete terms so that we do not have the 
discretion, some would call it the flexibility, but the 
discretion to put more toward the Federal acquisition side. I 
would ask you, Mr. Connor, why have we seen such a shift to the 
Federal acquisition side moving directly against, again, the 
initial intent which was a more even allocation between State 
side and Federal side?
    Is that fed piece just using muscle? What is happening, and 
do you think it is a bad thing that we should go back to the 
original intent?
    Mr. Connor. We talked a little bit about this in Senator 
Barrasso's questions, and he referenced the 60 percent original 
goal for state side. And that was, I think, modified by 
subsequent amendment to the act itself.
    And what I represented is we're about at a 60/40 split from 
our perspective. We've moved in that direction because we've 
got more flexible tools now, I think, to deliver resources to 
the state and local entities. It's not just the state side 
program, the traditional program, of giving money directly to 
the states according to the formula.
    We've got the grant programs which all go to local 
entities, particularly for legacy program within the Forest 
Service, the Cooperative Endangered Species Grant Program which 
goes to the local entities in a lot of cases to acquire 
conservation easements associated with habitat and conservation 
plans which achieve local goals, as well as the Urban Parks and 
Recreation Programs which Senator Barrasso mentioned, that we 
made an announcement yesterday.
    So the 40 percent of the resources are really going to 
state side local entities, not to any Federal entity, not for 
any Federal acquisition.
    The Chairman. Let me ask Mr. Ledford if he agrees with all 
that.
    Mr. Ledford. To clarify from my point of view, the state 
program receives 12 and a half percent, on average, in the 
recent years. Those other programs don't go through the 
competitive planned process that come to the states. There are 
more Federal programs that are given directly to other programs 
verses the match that the 50 percent at least match that the 
local communities are providing with the state. So we're 
actually at a 12 and a half percent or there about allocation. 
And then the local governments or institutions are matching 
that fund, but it is in the 12 and a half percent that goes 
through the state assistance program. The related purposes 
would be what you would consider that were added in 1998 that 
allow for the other funds.
    The Chairman. Let me ask you another question on that 
because some have suggested that the oversight or the 
accountability measures with regards to state assistance LWCF 
programs, there are some issues as to whether or not the funds 
are going in the direction where the programs are authorized. 
What kind of oversight do we have? What kind of accountability 
do we have on the state side?
    Mr. Ledford. Well each state has a gubernatorial-appointed 
state recreation liaison officer that manages the program for 
their state. It's watched the entire time with the program, 
every five years there's an inspection and authorization that 
the projects stay in perpetuity to the intents that it was set 
up to be established for the operation of the outdoor 
facilities for the park.
    The Chairman. So we do have a level of oversight in place 
that is pretty clearly defined then?
    Mr. Ledford. Absolutely, and I would like to go on to 
clarify with some of these other points that the state side 
does allow for land acquisition as well.
    The Chairman. Right, right.
    Mr. Ledford. On the state programs, not just facilities.
    The Chairman. Right, understood.
    Let us go next to Senator Alexander.
    Senator Alexander. Thank you.
    Thank you, Madam Chairman, and thank you for the 
discussion.
    In 1985 and 6 I was Chairman of President Reagan's 
Commission on Americans Outdoors and one of the major 
recommendations was to fully fund the Land and Water 
Conservation Fund and do it in a mandatory way. That has never 
been, in fact, realized because of the way our budget system 
works here. But after spending a year and a half chairing, I 
was a Governor then, looking at all these issues, I came to the 
conclusion that maybe we needed a conservation policy for the 
Western United States and a different one for the Eastern 
United States. And I still feel that way.
    I can understand how Senator Murkowski feels about 
acquiring more land in Alaska because, the Federal Government 
owns so much of Alaska. Tennessee, North Carolina, we are 
different, you know? We have got the national park, the Great 
Smokey Mountains is 500,000 acres which we bought and gave to 
the Federal Government and then there is the Cherokee National 
Forest. And that is close to it.
    We like the fact that Land and Water Conservation money is 
used to help acquire Rocky Fork which was a Forest Service 
priority, and so there is a completely different attitude, and 
I think one of the great things about our country is that we 
are big and diverse, and we are not one size fits all. So why 
should a one size conservation policy fit every single state? 
Why shouldn't we say to a state like Tennessee that if you want 
to use your Land and Water Conservation Fund money to acquire 
more lands have at it? And to a state like Alaska, if you want 
to use some of it to maintain what you have, you can do that. 
What would be wrong with that, Mr. Secretary?
    Mr. Connor. Thank you, Senator.
    I think we've acknowledged and I heard Secretary Jewell 
acknowledge and I think this came up in our budget hearing the 
fact that there is probably more enthusiasm for the LWCF in the 
Eastern states vis-a-vis the Western states, probably not 
because of more interest in conservation, but it's probably the 
land acquisition piece in and of itself. I'm not quite sure how 
a different kind of conservation policy East and West would 
play out.
    Senator Alexander. One way to express itself the last time 
we dealt with this it seemed like, when we created a little bit 
of mandatory funding for the Land and Water Conservation Fund a 
few years ago it all went to the state side because the 
westerners did not want any more Federal land acquired. So that 
was an implicit recognition of what I just said.
    While I am on that how much money, so far, has been 
produced by the one-eighth of cent, I guess it was, of 
mandatory funding for the state side of the Land and Water 
Conservation Fund in the Energy bill of 2005 or 7, whichever it 
was, 2007?
    Mr. Connor. It hasn't manifested itself in great amounts so 
far.
    Senator Alexander. But how much?
    Mr. Connor. I think it's probably in the neighborhood of $4 
to $8 million.
    Senator Alexander. Yes, I think it is $3.6 million. Is that 
right?
    Mr. Connor. That is probably right.
    Senator Alexander. Yes.
    Mr. Connor. And maybe----
    Senator Alexander. You ought to know that. [Laughter.]
    Mr. Connor. Yes, sir.
    Senator Alexander. If it is only $3.6 million. That is the 
only mandatory funding we have, isn't it, for the Land and 
Water Conservation Fund?
    Mr. Connor. It is. But as you know, as of 2017 the amount 
that that applies to, that incremental value of revenues does 
increase.
    Senator Alexander. It could increase or does increase. What 
happens in 2017?
    Mr. Connor. So it was a sliver of those oil and gas 
revenues of an area within the Gulf of Mexico.
    Senator Alexander. Right.
    Mr. Connor. It was eligible to be used for those revenues 
for the state side program. That area increases substantially 
in 2017. So as of 2018 I think we're looking at a cap of about 
$125 million. It could get to that cap and you could have $125 
million for the Land and Water Conservation Fund state side 
program depending on where oil prices are at that point in 
time.
    Senator Alexander. It could get to it.
    Mr. Connor. It could.
    Senator Alexander. It could get to it.
    Mr. Connor. Exactly.
    Senator Alexander. But so far it is $3.6 between 2009 and 
now which is not a whole lot of money.
    Mr. Connor. Right.
    Senator Alexander. I would like to reintroduce the subject 
of user fees. Every time I have looked at the maintenance 
backlog of the National Park System it is mostly roads and that 
kind of thing. Roads ought to be paid for by people who drive. 
I do not know why it's not part, as it has been before, of our 
National Transportation system program. I don't know why we 
would take valuable dollars that we should use, that we need to 
use, to maintain parks and use it to maintain roads.
    For example, there is one road through the Great Smokey 
Mountain National Park, only one. It is a major highway. 
Maintaining it is a big deal. I assume that comes out of the 
National Park Service funds. Is that correct?
    Mr. Connor. There are some funds. We are looking at fees 
and----
    Senator Alexander. No, I mean, the road through the Great 
Smokey Mountain National Park. Is that paid for by park funds 
or by highway funds?
    Mr. Connor. I think we would prioritize most of the major 
work that needs to be done out of the Transportation bill, the 
highway funds, but I'm sure there are some Park Service funds 
that go toward that.
    Senator Alexander. Do you----
    Mr. Connor. We could look----
    Senator Alexander. Do you not know that?
    Mr. Connor. I do not know that off the top of my head.
    Senator Alexander. Well, why don't you know that? I mean, 
that is the most visited National Park. It is the only road 
through the park. You are the Deputy Secretary. You ought to 
know that.
    Mr. Connor. I'm going to know that very soon, sir.
    Senator Alexander. Yes, I think you should. I mean you 
ought to know exactly how much money is coming out of the 
mandatory fund in LWCF. You ought to know how much money, I 
mean, if we are going to be having a whole hearing about 
maintenance, we ought to know whether the highway funds are 
coming out of the Federal highway system or whether they are 
coming out of the park system.
    My time is up, Madam Chairman.
    The Chairman. Senator Warren?
    Senator Warren. Thank you, Madam Chairman.
    The Land and Water Conservation Fund is a good example 
about how environmental protection and economic growth can 
reinforce each other. A recent report by the Trust for Public 
Land found that for every dollar invested in the Land and Water 
Conservation Fund returns of $4 came in economic value, not 
only through the benefits of recreation and tourism but also 
through less obvious benefits such as protecting water quality, 
water supply, guarding against floods. Some of these you 
referred to in your testimony.
    But Mr. Deputy Secretary, could you just give me one or two 
quick examples of how Federal land acquisition under the Land 
and Water Conservation Fund generates economic value?
    Mr. Connor. Absolutely.
    There are ancillary benefits that are certainly real from 
an economic standpoint. As you mentioned, protecting our water 
supply and Ms. Scarlett gave a very good example of how in one 
instance there was, I think it was in the Connecticut River 
Basin, the protection of the water supply alleviates the need 
for doing certain maintenance activities. And so, that's an 
example.
    But certainly I think there are numerous examples of 
recreational benefits of enhancing that outdoor recreation 
industry, and that certainly is through our access programs, 
the Niobrara National Scenic River, the Smith River National 
Recreation Area in Oregon. These are all areas that have been 
identified as a high priority by not just the Federal 
Government, but the state and local communities because of the 
economic viability of those recreation areas and the yield to 
the local economies.
    Senator Warren. Well some have suggested that the Federal 
Government is using these tools to expand the footprint of 
Federal lands in our states. So I actually want to focus on 
this. When land is acquired through the Land and Water 
Conservation Fund does it represent an expansion of the Federal 
footprint or does it mostly involve infill, that is buying up 
properties that are already surrounded by Federal land and 
creating an easier to manage unified piece of land?
    Mr. Deputy Secretary?
    Mr. Connor. Over the last five years it greatly goes to 
inholdings within existing conservation units. 99.25 percent of 
the acquisitions have been within those external boundaries. In 
fact the National Park Service and the Fish and Wildlife 
Service only acquire lands within their external boundaries.
    The Bureau of Land Management does have the ability to 
acquire them outside but they prioritize inholdings and edge 
holdings. And there are, that 99.25, that small percentage 
that's not inholdings is BLM and it's three acquisitions that 
they've made within the last five years.
    Senator Warren. Sir, I just want to underline that number. 
That is 99.25 percent of all lands purchased for the Department 
of the Interior go for filling in holes that were privately 
held in the middle of Federal park lands.
    Now in Massachusetts the National Park Service recently 
expanded the Cape Cod National Seashore area in precisely this 
manner by acquiring an easement of the North Highland 
Campgrounds which was already surrounded by National Park land. 
Can you walk us through why these purchases, in many cases, 
actually reduce the cost to taxpayers and make it easier to 
manage Federally protected lands?
    Mr. Connor. From many levels we've talked about how these 
inholdings require additional fire protection activities which 
certainly is an additional cost on a yearly basis.
    Ease of management, quite frankly, where we have inholdings 
and private property. We have to take care to limit access to 
those private properties and keep people within the publicly 
available lands, so it's a management challenge.
    From a habitat standpoint it's also a management challenge, 
and it eases overall management goals with respect to 
connectivity and habitat and water supply restoration efforts. 
If we've got one ownership and it's part of a conservation unit 
and so on many different levels there's efficiencies to be 
gained from addressing the issue of inholdings.
    Senator Warren. Well, thank you very much. I appreciate you 
all being here today.
    In Massachusetts the Land and Water Conservation Fund has 
been a very strong success. It protects a diverse collection of 
areas from forests and watersheds such as the Conte National 
Fish and Wildlife Refuge that provides many ecological benefits 
to important historic sites such as the Minute Man National 
Historic Park. Good for our environment, good for our economy.
    I am looking forward to working with my colleagues to 
reauthorize and fully fund this program so we can continue to 
have all of the tools we need to protect this land for our kids 
and our grandkids.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Let us go to Senator King.
    Senator King. Thank you, Madam Chair.
    I would like to step back and talk about the original 
purpose of the law. This is one of the most far-sighted, in 
fact, visionary statutes passed in the last 100 years. I have 
always thought that the people who had the foresight to set 
aside Central Park in Manhattan at a time when that island was 
very sparsely populated and to preserve that land is one of the 
great acts of genius in our country.
    Of course, the national parks fit into the same category. 
Ken Burns said they were America's best idea. They are one of 
the few things we can do around here that is permanent, as 
permanent as anything can be. Laws and statutes come and go, 
but once land is set aside for the public, it is there 
permanently.
    I think it is important to realize that the funding source 
here, the offshore oil and gas revenues, those resources belong 
to the public, and we are using that money that comes from 
property that is owned by boys and girls in Bangor, Maine and 
people that live in Alaska and people that live in San 
Francisco or Alabama or New York. Those are their assets and we 
are allowing people to use them for commercial purposes. There 
are fees involved, and turning that money back into access for 
people to the public is absolutely essential it seems to me. 
This whole discussion, to me, is a great big example of the 
failure of Congress to adequately address the country's needs.
    Mr. Watson, you made an eloquent case for adequately 
funding the national parks not raiding the Land and Water 
Conservation Fund to do what Congress should be doing in the 
budget of the national parks or how about this? Funding the 
Highway Trust Fund. That would be a good idea. It goes broke in 
30 days. We have patched it, I do not know, ten or 11 times. 
Senator Warren just whispered, embarrassing, and that is what 
it is.
    We are like a search light searching for pots of money that 
can be sucked up to meet the needs that we ought to be doing in 
the ordinary course of budgeting. By the way, Mr. Connor, I do 
not let the parks all fall together. I have gone after 
Secretary Jewell about the failure to collect fees adequately 
at the parks, and you need to modernize that system because a 
lot of people that come to the national parks, I know people 
come to Acadia, tell me, ``We would like to pay, but we could 
not figure out where the entrance was.'' So we need to work on 
that.
    But I just think the fundamental question here is once we 
start saying well this is a slush fund for covering deferred 
maintenance then, forget it. We may as well repeal the statute 
and name it something else because it is not going to be living 
up to its purpose. And this country is growing.
    It is also interesting this is a regional issue because it 
is very different in the West. I was just talking to Senator 
Risch from Idaho. Two-thirds of the land in Idaho is owned by 
the Federal Government. That is not true in the East where 
public lands are so important in terms of people's access to 
the out of doors, people's recreational access.
    The other thing we need to remember is this money is not 
just for Yosemite or Acadia National Parks. I met recently with 
some friends in Maine, Steve Balboni, Tracy Willette and Denise 
LeBlanc. They are local park officials in Bath, Maine, Bangor, 
Maine, Skowhegan, Maine. They run summer programs for kids, and 
they have recreational opportunities. They work with the school 
lunch program. This is real important. We are not hugging trees 
here, we are hugging kids nationwide, and I think that is very 
important.
    Finally I am passionate about this because my wife and I 
are RVers, and we have stayed in some sensational state parks. 
Dead Horse Point State Park in Utah, state parks in Georgia, 
state parks in Washington State, national parks all over the 
country.
    This is who we are, and it is one of the greatest things 
about this country. I am just very intent, as you might be able 
to tell, that we not, in effect, convert this statute, this 
far-seeing visionary act of genius by our forbearers in this 
institution, to a maintenance fund to fix roads and curbsides 
in our nation's parks and in our community parks across the 
country.
    I have used up all my time, so if you could find a question 
in there you are welcome to it. [Laughter.] I just feel so 
strongly about this, and I appreciate all of you coming. Mr. 
Watson, I know I cited you in particular, so certainly.
    Mr. Watson. I found a question there, if I may?
    Senator King. I want you to come to the Appropriations 
hearing and make the same case for funding the roads and the 
bridges in the national park.
    Mr. Watson. I'd be happy to.
    I hear you wholeheartedly, and I think raiding the Land and 
Water Conservation Fund to turn it into a maintenance fund is 
the wrong idea. But as I said and I said it colloquially, as my 
Dad said to me, when you're digging a hole, when you find 
yourself in a hole, stop digging.
    And that's the point. That's the thrust of my testimony is 
we should probably stop acquiring more lands and stretching 
those maintenance dollars further rather than raiding the fund 
for maintenance. But we need to do something.
    The National Park Service itself estimates that it needs 
$700 million a year just to hold the line, just to maintain the 
current backlog, not even to start drawing it down. So this is 
a significant financial issue. You said who we are. This is who 
we are, and I couldn't agree more.
    And as we think about celebrating the National Park 
Centennial what are we going to celebrate? Are we going to 
celebrate acquiring a lot of lands that are no longer 
maintained, the roads are crumbling and inaccessible and 
wildlife habitat is deteriorating? And we're literally 
poisoning our Sequoias with waste water or chlorinated water or 
do we want to celebrate stewardship?
    And I think back 50 years to what the original forbearers 
who passed this visionary law were thinking about, and I 
suspect they were thinking about stewardship and conservation, 
not necessarily acquisition in the name of acquisition.
    Senator King. Thank you.
    It looks like we are in charge, Senator Gardner.
    Senator Gardner [presiding]. Thank you. We have to find 
questions all over the place now, you and I.
    Thank you very much to all of you for being here today.
    It is great to see you, Lynn. It is great to see you. Thank 
you, Ms. Scarlett, as well for being here. And thank you to the 
Chairman Murkowski and Ranking Member for holding the hearing 
today on a very popular and bipartisan program.
    Over its 50 year history the LWCF has conserved iconic 
landscapes in every state and is our nation's most important 
conservation program. According to Colorado Parks and Wildlife 
since the inception of the program approximately for every $1 
approximately in LWCF grants that have been made in Colorado it 
was leveraged with $2.50 in investments dedicated to the 
construction and maintenance of outdoor recreation throughout 
my state.
    This type of conservation system has helped Colorado 
establish an outdoor recreation economy that contributes $10 
billion of economic activity to our communities and supports 
over 107,000 good jobs. I was proud to support Senator Burr's 
amendment during the Keystone debate that would have 
permanently reauthorized LWCF. Furthermore, in the past LWCF 
funds have helped eliminate the threat of water exports from 
the San Luis Valley in Colorado to help create the Great Sand 
Dunes National Park and the Baca National Wildlife Refuge.
    We have a picture here of somebody who is really mad that 
water is interfering with their fence, but beautiful. In the 
background you can see the sand dunes and the mountains in the 
back. And because of LWCF we have these lands in Colorado that 
may not have been preserved otherwise or protected for current 
and future generations to enjoy.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    I would like to share this picture along with another photo 
that we have of the Baca Ranch just to show one, of the many 
opportunities that we have across this country to preserve some 
of the greatest landscapes that we have.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    So to Director Scarlett, I have seen the value that LWCF 
can bring to a community by helping purchase inholdings on 
Federal lands. Could you speak to the importance of purchasing 
inholdings at a broader level, a national level?
    Ms. Scarlett. Yes.
    As those gathered know when the Congress designates parks, 
refuges, etcetera, they designate the boundaries of those 
places. But sometimes at the point of designation not all the 
lands within those boundaries are actually available and so 
many of those lands end up as Deputy Secretary Connor 
suggested, with inholdings. By being able to actually acquire 
those inholdings there are a number of benefits, not only in 
terms of recreation, in terms of preventing land fragmentation 
and indeed, even undermining some of the original purposes of 
the parks or the wildlife refuges but significant management 
benefits.
    And I do want to say, I think it's a mistake, as Reed 
Watson suggested, to think that land acquisition is in 
competition with management enhancement.
    Let's think of wildland fire, something in your state 
you're really well familiar with. Prescribed burns cost about 
95 percent less than mechanical treatment. And to be able 
though to do those prescribed burns actually requires that you 
have some contiguous lands. It's very difficult to do them 
where you have inholdings for fear of encroaching on those 
private lands. That's one example. There are many, many others 
where those acquisitions significantly enhance management.
    I think Secretary or Deputy Secretary Connor also mentioned 
the issue of public access. And one of the challenges where you 
have inholdings is from the public standpoint they don't know 
where that private boundary begins and the public one ends. And 
so there's a challenge for the agency of managing those 
boundaries to make sure people don't trespass on those private 
lands. Removing that challenge by acquiring that inholding can 
significantly benefit the public in terms of trail continuity, 
but also the agency in terms of management. Really the list 
goes on and on.
    Senator Gardner. Yes.
    Deputy Secretary Connor, Colorado has been fortunate to 
have a very successful state program, Great Outdoors Colorado. 
They have done amazing work, but there are areas where the 
Federal Government just simply has to take the lead.
    Rocky Mountain National Park is celebrating its 100th 
anniversary this year, and there is one particular inholding on 
one of the main park roads that has become available for 
acquisition by the park. The State of Colorado, Larimer County 
most likely, will seek to secure that inholding.
    Would you please address a little bit about what Ms. 
Scarlett said in terms of the two not being in competition with 
each other, the land acquisition, inholding acquisition, those 
two efforts----
    Mr. Connor. Absolutely. I absolutely agree. They're both 
high priorities.
    I think it shouldn't be looked at as LWCF adding to the 
maintenance burden because of all the efficiencies that we've 
talked about today with respect to management and not only 
firefighting efforts which I talked about to some extent. But 
also, absolutely, the prescribed burn, the daily type of 
maintenance and management activities that we have to do to 
take care of these lands which are made more easy by acquiring 
these inholdings. So there's efficiencies in those programs 
that don't make it necessarily an additional burden. It 
actually helps in our overall management and our efficiency in 
managing public lands. We do need to deal with, separately 
though, the backlog of deferred maintenance.
    And I think Mr. Watson's absolutely right. We have the 
park's Centennial coming up. That's the reason why we have this 
initiative in the 2016 budget to get on a very definite program 
to deal with that $11.5 billion maintenance backlog of which 
about $4.9 billion is non-transportation assets, about $5.6 
billion are transportation assets and get, particularly, 
prioritize as our highest priority assets and have this ten-
year program to not only get them back into good condition but 
ensure that we can maintain them in good condition. Our budget 
proposal does provide for that just as it provides for the Land 
and Water Conservation reauthorization and mandatory funding.
    Senator Gardner. Thank you.
    Madam Chair, there was only one attempted rebellion while 
you were gone, so we were happy to restore order. [Laughter.]
    The Chairman [presiding]. Thank you, I appreciate that.
    Senator Manchin?
    Senator Manchin. Thank you, Madam Chairman.
    In the great State of West Virginia we know the importance 
of protecting our public lands. They are a source of economic 
activity and connection to our heritage. Each year nearly a 
million people take advantage of the beauty, beautiful, public 
lands in West Virginia, and we are very proud of that.
    We generate about $7.6 billion in consumer spending and 
82,000 jobs which we are very appreciative for that. These jobs 
provide about $2 billion in wages and more than half a billion 
in state and local tax revenue. The Land and Water Conservation 
Fund has provided over $230 million to West Virginia over the 
past 50 years including nearly $50 million for the New River 
Gorge area, the picture of which I have with me. As you can see 
it's a very, very beautiful place.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    The New River is one of the oldest rivers on Earth. It was 
home to early coal mining and company towns, railroads and 
farms, and today it is known for world-class whitewater rafting 
as well as hunting, fishing, camping and just about any outdoor 
activity. Protecting lands like these across the United States 
should continue to be a priority for Congress which is why I am 
proud to co-sponsor a bill this Congress to both reauthorize 
and fully fund this important program.
    Let me ask you all, with GOMESA funding currently the only 
sure funding going to LWCF, can you please share your thoughts 
on the challenges our network of public lands, State and 
Federal, will face if one of the LWCF programs has guaranteed 
funding and the others do not, where your priorities may be? 
Who would want to jump in on that?
    Mr. Ledford. From the state perspective GOMESA, you know, 
we are very appreciative of all the funds that we have 
available.
    Senator Manchin. Sure.
    Mr. Ledford. But there is a cap and ceiling on that that 
would be just over $125 million total coming in. So that 
doesn't get us back to the amount of equitable allocation that 
we would seek to have from the reauthorization of LWCF. But 
again, we're very appreciative of all those funds to be brought 
to the table.
    Senator Manchin. How do you all categorize and pick the 
ones you think are most effective because we do not want to 
lose any. So we will be sitting here defending our states and 
all the programs that we have, and they have all been helpful. 
But as you start prioritizing because of budget restraints, 
where do you go? How do you go? Do you hear from us? Listen to 
us or our states? Do you ask us to prioritize which ones we 
need the most and have the most effect or do you just cut 
across the board because it is easier that way?
    Mr. Ledford. Each state has a statewide comprehensive 
outdoor recreation plan that analyzes and prioritizes based on 
demand, trends, supplies, opportunities. That's a very open 
process to select those highest priority projects.
    Senator Manchin. So you do not pick any one of the programs 
within your jurisdiction as far as one you are going to that 
you think has the most return and the most good for the people?
    Mr. Ledford. We try to go through those priorities that is 
established by that statement.
    Senator Manchin. Well I am saying your funding, coming from 
the Federal Government. If it starts cutting back do you just 
go across the board and take all the cuts?
    Mr. Ledford. Yes.
    Senator Manchin. That is the way----
    Mr. Ledford. Well on the state side, yes.
    Senator Manchin. Federal side too.
    Mr. Ledford. Yes, we--yes.
    Mr. Connor. On the Federal side we'll continue to 
prioritize with whatever resources we have. We think the 
mandatory funding proposal is incredibly important to add 
stability to the program to allow the benefits of efficiency 
and long term planning, but we have prioritized our 
acquisitions based on conservation value, the management 
efficiencies we get out of it and the threats to the resource, 
quite frankly.
    And so each agency has its own set of priorities that are 
doing acquisitions. We also have a collaborative conservation 
program that looks at large landscapes, and we're doing that 
very much across the Federal Government and with the state and 
local entities.
    Senator Manchin. Let me go to one more question then.
    As you may know, West Virginia is proud to be the third 
most forested state in the nation. I have my dear friend here 
from Maine who may be trying to take claim for one of the other 
ones. Close to 80 percent of the entire state is forested in 
West Virginia. It is unbelievable.
    Timber production from these forests are critical to the 
state's economy, but they are equally important for providing 
clean water, outdoor recreation, hunting, fishing and many 
other uses. Importantly 87 percent of our forest land is 
privately-owned while only 13 percent is in public-ownership.
    You mentioned in your testimony the Forest Legacy Program 
which helps maintain private forest land and its other related 
purposes with LWCF. Can you go into more detail in how the 
Forest Service uses this particular program to work with the 
states and private landowners to protect public lands? How do 
you coordinate that?
    Mr. Connor. The Forest Legacy Program, I know that it's 
highly valued by the states. It's at the Department of 
Agriculture so I'm probably a little spare on the details 
itself.
    Senator Manchin. Okay.
    Mr. Connor. But I do know that they've used this very 
effectively to keep working lands in production as much as we 
do with respect to range land within the BLM.
    The Forest Service has looked at these as opportunities to 
support the conservation easements, working lands, those 
forests, to achieve conservation goals, but to ensure that they 
stay in those ownership, that they don't get developed and that 
they can be used for revenue production also.
    Senator Manchin. Thank you, Madam Chairman, and I yield my 
three seconds back to the Senator from Maine.
    The Chairman. Thank you, Senator Manchin.
    It looks like we have got an opportunity for a couple more 
questions here. Again, I apologize that we have been in and out 
throughout this hearing.
    As I have come in and out I have heard you all repeating 
comments that you had made previously in response to other 
members, and I apologize for that. Maybe you are just 
reinforcing your statements here.
    One of the things that I wanted to ask that I hope has not 
yet been addressed was how you identify for purposes of 
purchasing lands through LWCF funds to address the public 
access issue. I mentioned in my comments, again, that in Alaska 
and many remote parts, I think you, Senator Daines, mentioned 
that there are parts of Montana, parts of Alaska, parts of the 
country that it is really difficult to access these public 
lands whether it is for hunting, fishing, recreational 
opportunities. What do you do, Mr. Connor, in terms of 
identifying and how are our sportsmen and women incorporated 
into a process of prioritization?
    As you have heard, Senator Heinrich and I are working on 
this bipartisan Sportsmen's bill. We have some pretty good 
provisions within that, but we want to make sure that the 
interest, the voices of the users of our public lands, are 
heard as well when you are identifying priorities.
    Mr. Connor. Absolutely.
    Well we do rely on the local land managers working with the 
local communities on identifying those high priority access 
issues. And through that effort we have gradually increased 
what is essentially a set aside within our programs to ensure 
access. And I think in the 2016 budget across Interior and USDA 
it's a $20 million set aside out of the overall request.
    I would say also we're sensitive with respect to--so 
there's the specific set aside for specific recreational access 
to sportsmen and sportswomen for hunting, fishing, those type 
of activities. There's also, I think, overall we've looked at 
our acquisitions and about 90 percent of the acquisitions do 
allow for public access too. There are some instances where we 
have conservation easements on private lands where private 
access is not or public access is not part of the acquisition 
in that sense and more that's for conservation efforts and to 
maintain the working nature of those lands. But we do try and 
ensure access through the overall program as well as the 
specific set aside.
    The Chairman. Now under the North American Wetlands 
Conservation Act, the NAWCA, the grant proposals there are 
reviewed, they are ranked by a conservation NAWCA Council. It 
is a nine member board that is established by the Act, and they 
make recommendations for funding for specific projects. Some 
have suggested a similar process for sportsmen to weigh in and 
to provide input for a prioritization. Is that something that 
the Department would be favorable to?
    Mr. Connor. We would certainly consider that and think 
that's worthy of discussion.
    The Chairman. Okay.
    As we think about our public lands and the issues relating 
to maintenance and the backlog, we must absolutely place the 
priority there. The second concern that I am hearing from folks 
that are utilizing our lands in Alaska is--these are public 
lands but it sure does not feel public to us. It feels like it 
is only the land managers themselves that seem to have access 
to some of these places. Particularly in Alaska, because of the 
remoteness the access issues are real. It is something that I 
want us to look critically at and again incorporate the views 
of those who will be using these lands.
    I want to go to Senator Daines, and then we will probably 
have a chance to wrap up unless anybody else comes in with one 
more opportunity.
    Senator Daines. Thanks, Chairwoman Murkowski.
    I want to go back and reemphasize that point regarding the 
importance that our lands play in terms of our economic 
development in a place like Montana. I talked a little about 
the software company that we built there. I talked about that I 
love it, dot.com, here, was a recruiting website. We also had 
another ad we went by that says work where you also like to 
play. We really can have it all. You can work and get a good 
wage, and yet, you are just 50 minutes away from access to 
trails and a stream.
    I think we do need to sort out as a Committee this issue on 
maintenance backlog. How do we continue to fund and support 
LWCF? How do we also address the issue here with a backlog and 
taking care of the existing lands?
    I want to go back to Mr. Connor. Could you help the 
Committee, maybe provide an estimate of the cost savings within 
Federal agencies by acquiring these inholdings, by 
consolidating these checkerboard ownerships? Because I think 
part of what we are trying to do here is simplify sometimes a 
very complex land ownership map. I am referring to cost savings 
associated with perhaps the management costs of managing the 
complexity of a checkerboard situation verses the savings that 
you mentioned by not developing it that relate to wildfires.
    I would assume it is easier and simpler to manage 
consolidated lands than have to figure out a way, it is pretty 
inefficient to manage a very checkerboard situation. So is 
there any way you can quantify, looking for how we are saving 
money by consolidating and providing better access to our 
public lands?
    Mr. Connor. There have been some quantifications in 
specific situations. Such as I mentioned in my testimony with 
respect to the National Park in Alaska where we acquired native 
allotments and the projection for the Park Service said that 
the savings were about $60,000 per tract that had been acquired 
with respect to reduce wildfire fighting costs. And so I know 
we have anecdotal quantification of the benefits. We can check 
and see. You can get as much information in different contexts.
    I think Ms. Scarlett raised a very good point, not just 
fire fighting in the premium that we have to have on inholdings 
to protect structures or private property, it also the ease 
that we have with respect to prescribed burns as a way of 
managing the resource as opposed to mechanical issues.
    Senator Daines. Yes, I would think there would be 
efficiency gains, again any sportsmen in Montana knows you have 
to spend about half your time looking at your GPS wondering 
where in this checkerboard arrangement. I would think we gain 
efficiency and more effective management through the investment 
in LWCF funds where we consolidate and bring greater access. I 
think that would be a strong argument, again, for additional 
benefits for LWCF as we look at moving forward here on 
reauthorization.
    Mr. Connor. Yes, there are savings on many levels.
    Senator Daines. I think if you could help us on that it 
would be, I think it would be a compelling argument as well 
here too.
    I want to turn to Mr. Watson. It is always good to see 
somebody from my home town of Bozeman here.
    You propose using portions of LWCF to fund the maintenance 
and operation of existing Federal lands. I know there was the 
Tenderfoot acquisition in Montana where there was a private 
entity that set aside five percent of the purchase price to 
assist the Federal agency in land management of that 
acquisition. Do you think encouraging similar arrangements 
would that help alleviate some of your management concerns?
    Mr. Watson. Possibly, but one of the points we made earlier 
in the hearing was this is such a large issue now that, truth 
be told, the Land and Water Conservation Fund is somewhat a 
drop in the bucket. As I said earlier the National Park Service 
is estimating $700 million a year just to hold the line in 
their current maintenance backlog.
    I think we've got to think more holistically about this. 
Land and Water Conservation Fund can be a component of a larger 
strategy to address the maintenance backlog issue. Another one 
being, as I mentioned earlier, perhaps land swaps to address 
the checkerboarding and inholding issue that you just mentioned 
in a more revenue neutral manner. And third and finally, the 
one point I would emphasize here too is the user fees and 
charging the people who are driving much of this maintenance 
backlog, particularly in terms of transportation in terms of 
roads maintenance. That's an important point to consider as 
well. Allowing Federal land managers to charge fees and retain 
those receipts onsite is a pretty effective mechanism for 
addressing many of these issues.
    Senator Daines. Thank you. I am just about out of time. Ms. 
Scarlett, do you have any thoughts on that as well? I could see 
you nodding your head. There's something there that probably 
needs to be said.
    Ms. Scarlett. We have two challenges as we think about the 
maintenance backlog.
    One is, of course, the size of that backlog and one of the 
various tools to address it. Since half of that backlog is 
roads thinking about the reauthorization of the Transportation 
bill and ensuring that the portion for Federal lands is 
incorporated and incorporated sufficiently is important.
    Certainly recreation fees during my time at the Interior 
Department we managed to work with the Congress to get passed 
the Federal Recreation Enhancement Act which fundamentally was 
focused on user fees.
    But there's a piece that we keep missing, I think, in this 
conversation. It goes back to something I said about the Fish 
and Wildlife Service. What we need to be sure of is that the 
approach we utilize to address the maintenance backlog is 
actually one that imbeds into the annual management structures 
of the agency. Incentives to do that work well.
    And I look to the Fish and Wildlife Service as a case in 
point. Without any additional funds but simply by setting up 
very clear priorities, understanding what their maintenance 
backlog actually was, realizing that some of the items 
categorized were really pretty low priority. Roads not used by 
anybody but perhaps some of their own staff in remote places. 
They actually have been able to half their maintenance backlog 
in just a few short years, and I think looking at those 
management tools, something I spent some time on while I was at 
Interior is critically important. Not just thinking of giving a 
slug of money because that won't necessarily change the 
management structures. Really focusing on those structures, I 
think, is part of the picture.
    Senator Daines. Thank you, Ms. Scarlett. I am out of time.
    Thanks for the time here, Madam Chair, and I do think 
Congress needs to continue to do more in this area with LWCF as 
well as that we are looking at the timber reform for our 
healthy forests. We can improve all ten of our national forests 
back home in Montana and help revitalize the timber economies, 
create jobs. I am looking forward to additional work we are 
doing on this Committee here in these areas.
    Thank you.
    The Chairman. Well, I appreciate that.
    Good comments and good testimony this morning from all.
    Mr. Watson, you made a point at the end there as we were 
talking about how we find efficiencies, and I think we all want 
to find efficiencies. We have to from a fiscal perspective, it 
is a priority.
    There are other ways to do it short of the Federal, the 
land acquisitions. As you mention it is the land swaps. It is 
the exchanges.
    It is exactly what we did with the package that we put 
together within the NDAA last year where we were looking to 
address some of the inefficiencies that are inherent in this 
process, so that is one way to address the checkerboard and to 
do so in a revenue neutral way. I think that that is worthy of 
exploration.
    I think it is also worth noting that when we are talking 
about the effort to make the land acquisition and we are seeing 
this real benefit in buying up these inholdings. It is only 
within the National Park Service that it is, as I understand 
it, a statutory requirement to limit land acquisitions to 
inholdings. It is not a requirement for other management 
agencies to limit acquisitions to inholdings. So maybe that's 
something that we look at for the others.
    We also recognize that every time we add a new park to the 
lineup of our national parks as we did in NDAA. We add 
additional conservation units that have to be maintained. It 
then, kind of, builds on itself in terms of then how we have to 
deal with efficiencies because we have more areas that we have 
brought on line under our Federal management system. So it is 
something that I think we need to look critically at.
    I am chewing on the thoughts that were raised by Senator 
Alexander about how land management is viewed in different 
parts of the country, and we just have to stipulate to the fact 
that it is different in Alaska than it is in Maine. We 
recognize that. Yet, as Senator Alexander has pointed out, we 
have a one size fits all type of an approach or mentality. I 
guess this is where I am coming from as I learn more to say, 
what are we doing on state side because that is how you really 
can allow for the differences in attitude and approach toward 
land ownership.
    If you are from a western state that has big spaces and 
already a lot of public land you are going to be viewing it 
differently. The flexibility that state side LWCF can offer 
you, I think, does allow you the ability to not only provide 
for great spaces for people in our respective states and around 
the country, but again, allows for a level of flexibility.
    These are some of the things that we are exploring as a 
Committee as we work toward reauthorization, again, something 
that I do support.
    I do not think that LWCF is broken. There were some who 
suggested that was perhaps my leaning. It is not broken, but as 
with any program, there is always room for improvement.
    This is a measure that was put in place 50 years ago, so I 
think it is right and appropriate and legitimate that we look 
at it in the context of how it is operating today because when 
it was put in place 50 years ago we were at a different place 
in terms of where we were with our land management and also in 
terms of where we were with issues such as maintenance and 
backlog. We probably could not have imagined that we would be 
looking at $20 plus billion when were talking about our 
backlog.
    So as the times change we look at our laws and we review 
them. We should not get all excited that somehow or other we 
are going to be pulling the plug on an Act that has provided 
great benefit for Americans across the country.
    I do think it is appropriate that we review it for its 
timeliness and ensure that the great benefits that we have seen 
historically will continue into the future for our kids and our 
grandkids and again, with a responsibility and a stewardship 
that we are all going to be proud of.
    So I look forward to working with you. Know that we have 
good things that we have learned today. We will be doing more 
in the weeks and months ahead.
    With that, I thank you. We stand adjourned.
    [Whereupon, at 12:16 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------   
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                              


                                  <all>
</pre></body></html>
